Appellate Case: 21-5002

Document: 010110486315

Date Filed: 03/01/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
In re: BO ZOU,
Petitioner.

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

March 1, 2021
Christopher M. Wolpert
Clerk of Court

No. 21-5002
(D.C. No. 4:19-CV-00554-JFH-JFJ)
(N.D. Okla.)
_________________________________
ORDER
_________________________________

Before TYMKOVICH, Chief Judge, PHILLIPS and CARSON, Circuit Judges.
_________________________________
Bo Zou, proceeding pro se, requests a writ of prohibition requiring United
States Magistrate Judge Jodi F. Jayne to disqualify herself from Zou’s pending civil
action in the United States District Court for the Northern District of Oklahoma. A
writ of prohibition is an appropriate vehicle to challenge a judge’s refusal to
disqualify herself. See Nichols v. Alley, 71 F.3d 347, 350 (10th Cir. 1995) (per
curiam) (“[M]andamus is an appropriate vehicle by which to challenge a district
court’s denial of a recusal motion.”); Sangre de Cristo Cmty. Mental Health Serv.,
Inc. v. United States (In re Vargas), 723 F.2d 1461, 1468 (10th Cir. 1983) (equating
writs of probation and writs of mandamus). However, the petitioner “must
demonstrate a clear abuse of discretion, or conduct by the district court amounting to
a usurpation of judicial authority.” Nichols, 71 F.3d at 350. Prohibition, like
mandamus, “is available only upon a showing of a clear and indisputable right to
relief.” Id.

APPENDIX A

1a

Appellate Case: 21-5002

Document: 010110486315

Date Filed: 03/01/2021

Page: 2

Zou argues that the magistrate judge’s rulings against him on numerous
discovery-related disputes demonstrate bias. Zou ignores the magistrate judge’s
rulings in his favor, but regardless, “judicial rulings alone almost never constitute a
valid basis for a bias or partiality motion,” Liteky v. United States, 510 U.S. 540, 555
(1994). Zou also misunderstands many of the magistrate judge’s typical
case-management procedures as evidence of bias, which they are not.
Zou has not demonstrated his entitlement to prohibition relief. We therefore
deny his petition. We grant his motion to proceed in forma pauperis.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

2
APPENDIX A

2a

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

Case No. 19-CV-554-JED-JFJ

ORDER
Before the Court are several pending motions filed by pro se Plaintiff Bo Zou and
Defendant Linde Engineering North America, Inc. The motions primarily relate to a discovery
order entered by the Court on May 19, 2020 (“Discovery Order”). ECF No. 37.
I.

Plaintiff’s Motions
A.

Motion for Sanctions Related to Plaintiff’s Email to ICC (ECF No. 34)
(referred by ECF No. 43)

Plaintiff requests sanctions against Defendant for obtaining and filing an email Plaintiff
sent to third party ICC, because the email is protected by copyright law. This email was discussed
by the Court in the Discovery Order and relates to discovery in this lawsuit. See ECF No. 37 at
10-11. The Court finds no legal violations or otherwise sanctionable conduct by Defendant in
obtaining the email from ICC or filing it for the Court’s consideration. The motion for sanctions
is denied.
B.

Motion to Reconsider (ECF No. 38) (referred by ECF No. 43)

The Court granted Plaintiff’s motion to compel in several respects and ordered Defendant
to supplement its document production.

Plaintiff now moves the Court to reconsider the

unfavorable aspects of the Court’s ruling. Plaintiff repeats arguments raised in the motion to

APPENDIX B

3a

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20 Page 2 of 4

compel and continues to allege Defendant has engaged in discovery misconduct and misled the
Court. ECF No. 38. Plaintiff has not shown that the Court misapprehended the facts, Plaintiff’s
legal position, or the law governing the parties’ discovery disputes. Therefore, the Court denies
the motion to reconsider. See Servant of Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)
(explaining that a motion for reconsideration is appropriate where the court has misapprehended
the facts, a party’s position, or the controlling law).1
C.

Motions for Hearing and Translator (ECF No. 45) (referred by ECF No. 46)

Plaintiff requests an in-person, five-hour hearing on his motion to reconsider.2 In its
discretion, the Court declines to conduct a hearing on the motion to reconsider or permit any further
presentation of evidence related to the Court’s Discovery Order. Due to the Court’s denial of a
hearing, Plaintiff’s request for a translator at the hearing is denied as moot.
D.

Motion to Strike and for Sanctions (ECF No. 59) (referred by ECF No. 61)

Plaintiff moves to strike Defendant’s response to the motion to reconsider (ECF No. 49),
because Defendant failed to serve the response on Plaintiff. Plaintiff admits that he received notice
of the response no later than June 19, 2020, four days after it was filed. Plaintiff filed a timely
reply that the Court has considered. ECF No. 65. Defendant’s response brief sets forth specific
facts and arguments relied on by the Court in denying Plaintiff’s motion to reconsider, and the

1

To the extent Plaintiff seeks reconsideration based on the Court’s failure to await his reply brief
in support of his motion to compel, the Court has now fully considered such brief. See ECF No.
38-1. Upon consideration of the reply, the Court reaches the same result and finds no grounds for
reconsideration.
Plaintiff also requested a hearing on his motion to reassign the undersigned judicial officer. ECF
No. 41. That motion to reassign, and the corresponding request for hearing, are pending before
the district judge.
2

2
APPENDIX B

4a

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20 Page 3 of 4

Court finds no grounds for striking the document or sanctioning Defendant for any failure to serve
Plaintiff with this document. The motion to strike and for sanctions is denied.3
II.

Defendant’s Motions
A.

Motion for Entry of Protective Order (ECF No. 44) (automatic referral by
Northern District G.O. 05-09)

The Court expressly contemplated entry of a blanket protective order permitting Defendant
to designate certain documents as confidential. See, e.g., ECF No. 37 at 6 (compelling production
but stating documents may be produced pursuant to protective order). The Court finds that a
blanket protective order will facilitate discovery and the flow of information at this stage of the
proceedings. To the extent Plaintiff desires to challenge whether a confidentiality designation is
proper, Defendant’s proposed protective order permits such a challenge. See ECF No. 44-1 at ¶ 7.
Accordingly, the motion for entry of a protective order is granted, and the Court will enter a
protective order in the form attached as Exhibit 1 to Defendant’s motion.
B.

Motion for Extension of Time to Comply with Order (ECF No. 50) (referred
by ECF No. 55)

Defendant requests an extension of the supplemental production deadline set by the Court
in its Discovery Order. Defendant requests additional time to complete ESI searches and requests
that the Court postpone the deadline until entry of a protective order. There is no scheduling order
in place, and Plaintiff has not shown any prejudice resulting from the extension. Defendant has
shown good cause for the requested extension. Defendant shall have five days from the date of
entry of the protective order to complete its production.

3

The Court finds no need to permit a response or reply brief before denying this motion.
3
APPENDIX B

5a

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20 Page 4 of 4

III.

Conclusion
Plaintiff’s motions addressed in this Order (ECF Nos. 34, 38, 45, 59) are DENIED.

Defendant’s motion for protective order (ECF No. 44) is GRANTED, and the Court enters
Defendant’s proposed protective order this date. Defendant’s motion for extension of time (ECF
No. 50) is GRANTED, and Defendant shall have five days from the date of entry of the protective
order to complete its production.
The remaining motions pending before the undersigned (ECF Nos. 51, 54, 60) are not ripe
for review and will be ruled on by separate Order. In the Joint Status Report to be filed July 24,
2020, the parties shall state whether the remaining discovery disputes pending before the
undersigned have been narrowed or resolved in any manner.
SO ORDERED this 9th day of July, 2020.

J
ODIF.
J
AYNE,
MAGI
STRATEJ
UDGE
UNI
TEDSTATESDI
STRI
CTCOURT

4
APPENDIX B

6a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19-CV-554-JFH-JFJ

OPINION AND ORDER
Before the Court are numerous pending discovery motions and/or motions referred to the
undersigned for disposition. (ECF Nos. 18, 40, 42, 51, 54, 60, 80, 86, 89, 94).1
I.

Defendant’s Request for Special Discovery Management Order (ECF No. 80, Part
VIII.F, referred by ECF No. 92)
In the Status Report filed July 24, 2020, Defendant requests that both parties be limited to

four fact witness depositions and that Plaintiff be required to seek leave of Court before serving
any additional written discovery requests on Defendant. ECF No. 80 at 8-9.2 Upon referral of this
issue, the Court gave Plaintiff the opportunity to respond. ECF No. 103. Plaintiff objects to any
limits on the number of depositions, arguing that all ten proposed deponents have relevant
information and that ten depositions is proportional to the needs of the case. Plaintiff also argues
that Defendant should not be permitted to change its original position, which was that each party
could conduct a range of six to ten fact-witness depositions. See ECF No. 16 at 5.

1

Plaintiff’s Motion for Contempt (ECF No. 89) has not been expressly referred but relates to
Defendant’s alleged discovery failures. The Court rules on this motion pursuant to General Order
05-09, which refers all discovery matters in civil cases to the assigned magistrate judge.

2

The Court addresses Defendant’s request to prohibit or limit further written discovery in the
context of the Motion for Protective Order addressed infra Part VII.
APPENDIX C

7a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 2 of 11

Federal Rule of Civil Procedure 26(b)(2)(A) provides that “[b]y order, the court may alter
the limits in these rules on the number of depositions and interrogatories or on the length of
depositions under Rule 30. By order or local rule, the court may also limit the number of requests
under Rule 36.” Rule 26(b)(2)(C)(i) and (iii) provide that the Court must limit discovery if it
determines that the proposed discovery is “unreasonably burdensome or duplicative” or “outside
the scope permitted by Rule 26(b)(1),” i.e., not relevant or proportional to the needs of the case.
Proportionality requires consideration of “the importance of the issues at stake in the action, the
amount in controversy, the parties’ relative access to relevant information, the parties’ resources,
the importance of the discovery in resolving the issues; and whether the burden or expense of the
proposed discovery outweighs its likely benefit.” Fed. R. Civ. P. 26(b)(1).
This is an employment discrimination case that will turn on whether Plaintiff was subject
to discriminatory treatment during a reduction in force. The Court is familiar with Plaintiff’s
theory of the case, Defendant’s defenses, and the damages at issue, based on: (1) the Court’s review
of written discovery requests by both parties, (2) Plaintiff’s proposed deponents and Plaintiff’s
description of their proposed testimony, and (3) the two Joint Status Reports setting forth detailed
factual summaries. After consideration of the likely benefit of ten fact witness depositions,
compared to the burden and expense of permitting that number of depositions, the Court finds
Plaintiff’s requested number to be excessive and finds Defendant’s proposed limit to be reasonable
and proportional.
Contrary to Plaintiff’s arguments, Defendant permissibly changed its position regarding
the number of depositions that should be allowed between the time of filing the original Joint
Status Report on January 8, 2020, and the second Status Report, on July 24, 2020. The district
judge first assigned to the action did not set a schedule or rule on any issues presented in the
original Joint Status Report. When the case was reassigned to a new district judge, he ordered a
2
APPENDIX C

8a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 3 of 11

new report for the purpose of setting a schedule. The reassigned district judge was well within his
discretion to order a new status report and refer any discovery management issues presented
therein. In turn, Defendant was entitled to propose new discovery limits and deadlines, based on
developments in the case during this time.
Defendant’s Request for Special Discovery Management Order (ECF No. 80, Part VIII.F)
is GRANTED. Exercising its discretion under the above rules, the Court initially limits both
parties to four fact witness depositions. The parties may seek relief from this deposition limit, but
only after conducting the number of authorized depositions and upon a showing of good cause.
II.

Defendant’s Motion to Quash and for Protective Order (ECF Nos. 51, 54)
These motions seek a protective order pursuant to Federal Rule of Civil Procedure 26(c),

for the purpose of preventing the ten depositions noticed by Plaintiff for the week of June 23, 2020.
The Court granted Defendant’s motion to stay the depositions pending the Court’s ruling on this
Motion to Quash and for Protective Order. See ECF No. 58.
The Court has now placed limits on the number of fact-witness depositions pursuant to
Rule 26(b)(2)(A), as requested by Defendant. Plaintiff shall inform Defendant of his four
requested deponents no later than one week from the date of this Order, and the parties shall confer
regarding these depositions. With the limits imposed, the parties may be able to resolve further
disputes, and the Court denies the current motion without prejudice to refiling. The Court finds
inadequate justification to conduct these depositions at the courthouse, as requested by Defendant,
and will permit any depositions to proceed at the office building selected by Plaintiff.
Defendant’s Motion to Quash and for Protective Order (ECF No. 51, 54) is DENIED as
moot, without prejudice to refiling.

3
APPENDIX C

9a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 4 of 11

III.

Plaintiff’s Motion to Compel and for Sanctions (ECF No. 60)
This motion relates to Plaintiff’s third set of requests for production and second set of

Interrogatories, which were served on April 6, 2020. Plaintiff moves to compel Request for
Production (“RFP”) 1, 2, 3, & 5 and Interrogatory (“ROG”) 20.
RFP 1, 2, 5 – Denied. The Court granted Plaintiff’s motion to compel ESI, including emails
relevant to the case, by identifying two custodians and ordering Defendant to search certain terms.
The Court outlined the scope of proportional ESI discovery, and this is an attempt by Plaintiff to
circumvent that ruling with additional requests. Further, with respect to RFP 2, Defendant already
produced responsive documents and has re-run its search to determine if further responsive
documents exist.
RFP 3, ROG 20 – Denied. Plaintiff now has the entire employment history for Sharp and Duncan.
Defendant has explained that the word “tenured” did not refer to any specific promotion, but
instead referred to these two employees being senior to Plaintiff at the time of the reduction in
force. Defendant need not produce further documents or provide further explanation.
Plaintiff’s Motion for Sanctions is premised on Defendant’s delay in producing a signed
verification, which has now been produced.
Plaintiff’s Motion to Compel and for Sanctions (ECF No. 60) is DENIED.
IV.

Plaintiff’s Motion to Compel and for Sanctions (ECF No. 86) and Plaintiff’s Motion
for Contempt (ECF No. 89)
This motion relates to Plaintiff’s fourth set of requests for production, which were served

on May 11, 2020. Plaintiff moves to compel RFP 5 and 6.
RFP 5 – Denied. This request for communications between Defendant and ICC has already been
denied by the Court, and the Court maintains its prior ruling.

4
APPENDIX C

10a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 5 of 11

RFP 6 – Denied. Defendant is not withholding responsive documents and represented that it will
produce any responsive documents in its possession, custody, or control.
Plaintiff’s requests for sanctions and contempt are based on Defendant’s alleged perjury in
discovery responses, falsifying documents, failing to meet deadlines, and failing to produce
documents ordered by the Court. The Court has reviewed the correspondence between the parties,
including emails from Plaintiff requesting additional documents or discovery, and responding
emails from Defendant. Following is an example of a response from Defendant:
On RFP’s 2, 3, 4, and 7, you cannot agree to narrow the request for production and
then attempt to have Defendant “follow Plaintiff’s requirements” as set forth in the
original RFP’s. We have complied with the Court’s order and produced all
documents as ordered by the Court. On RFP 21, as I’ve said repeatedly, we do not
have any additional documents responsive to this request. For the balance of your
email, we have produced all email correspondence that references you, your
performance, your complaint, and your termination in compliance with the Court’s
order.
ECF No. 94-1.
Upon review of the correspondence submitted by both parties and Defendant’s discovery
responses, the Court finds no grounds for imposing sanctions upon Defendant or holding
Defendant in contempt. The Court finds no cogent or persuasive argument that Defendant has
misled the Court, fabricated evidence, failed to comply with Court orders, or otherwise engaged
in anything resembling sanctionable or bad-faith litigation conduct.
Plaintiff’s Motion to Compel and for Sanctions (ECF No. 86) and Plaintiff’s Motion for
Contempt (ECF No. 89) are DENIED.
V.

Plaintiff’s Motion for Change of Magistrate Judge (ECF No. 40)
Plaintiff’s Motion for Change of Magistrate Judge, which expressly references 28 U.S.C.

§ 455(a), was referred to the undersigned. Plaintiff seeks the undersigned’s disqualification based
on the following: (1) displaying a “high favoritism to Defendant and antagonism to Plaintiff” in

5
APPENDIX C

11a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 6 of 11

the undersigned’s ruling on discovery motions on May 19, 2020; and (2) permitting Defendant to
submit an ex parte letter to the Court in support of its assertion of privilege. See ECF No. 4.
The recusal statutes require a judge to disqualify himself if “his impartiality might
reasonably be questioned,” or if “he has a personal bias or prejudice concerning a party.” 28 U.S.C.
§ 455(a) & (b)(1). A judge must recuse himself when there is the appearance of bias, regardless
of whether there is actual bias. Bryce v. Episcopal Church in the Diocese of Colo., 289 F.3d 648,
659 (10th Cir. 2002). “The test is whether a reasonable person, knowing all the relevant facts,
would harbor doubts about the judge’s impartiality.” Id. The “recusal statute should not be
construed so broadly as to become presumptive or to require recusal based on unsubstantiated
suggestions of personal bias or prejudice.” See Switzer v. Berry, 198 F.3d 1255, 1258 (10th Cir.
2000). The decision to recuse is committed to the sound discretion of the district court, and the
movant bears a substantial burden to demonstrate the judge is not impartial. United States v.
Burger, 964 F.2d 1065, 1070 (10th Cir.1992).
The undersigned has no relationship with Defendant, its lawyers, or its witnesses.
Plaintiff’s assertions of bias are based on the undersigned’s substantive discovery rulings. The
undersigned will briefly address these frivolous arguments. First, a review of the May 19, 2020,
discovery Order reveals no bias in favor of Defendant or against Plaintiff. The undersigned granted
Plaintiff’s motion to compel in part and ordered Defendant to produce a significant amount of ESI
over its objection. The undersigned found that language used by Plaintiff in a letter to a third party
was threatening and inappropriate, caused the Court concern about Plaintiff’s abuse of the
discovery process, and warranted a limited protective order regarding third-party subpoenas.
However, these rulings were based on the facts and law presented, rather than based on bias.
Second, permitting ex parte submission of allegedly privileged documents does not show
favoritism. In the motion to compel, Plaintiff successfully argued that Defendant’s assertion of
6
APPENDIX C

12a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 7 of 11

work-product privilege was improper, based on information in Defendant’s privilege log. The
Court agreed with Plaintiff and ordered Defendant to produce the documents to Plaintiff, or submit
further information ex parte in support of its privilege assertion. Defendant elected to produce the
documents to Plaintiff rather than further pursue its privilege assertion, and Plaintiff prevailed on
this issue. The undersigned’s impartiality cannot reasonably be questioned based on discovery
rulings or other facts.
Plaintiff’s Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.
VI.

Plaintiff’s Motions for Chinese (Mandarin) Translator (ECF Nos. 18, 42)
Upon filing his Complaint, Plaintiff requested a Chinese translator. The district judge

originally assigned to the case stated in a minute order: “There are no hearings set at this time, and
the plaintiff's Complaint is coherent and is filed in English. As the litigation progresses, if a
translator becomes necessary for purposes of accommodating plaintiff's accent (e.g. during
deposition, court hearings) or for any other reason, the Court will consider a renewed motion for
appointment of a translator.” ECF No. 9. In his first renewed motion, Plaintiff “requests that the
Court find a Chinese (Mandarin) translator for the case hearing and trial because of plaintiff’s
some English accent.” ECF No. 18. In his second motion, requests a translator at a hearing
requested by Plaintiff in ECF No. 41. These two motions were referred to the undersigned.
The Court has not scheduled or conducted any pretrial hearings.

Plaintiff’s briefs

demonstrate his strong command of the English language, and Plaintiff has fully and adequately
represented himself on all issues. Plaintiff has suffered no prejudice based on the Court’s failure
to appoint a translator. To the extent Plaintiff requests a translator for purpose of the specific
hearing requested in ECF No. 41, the motion is denied as moot, because the district judge did not
schedule a hearing on the motion.

7
APPENDIX C

13a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 8 of 11

To the extent Plaintiff is requesting that the Court appoint a translator for trial, depositions,
or hearings that may be scheduled in the future, the Court denies the motion. Pro se parties in civil
cases are generally not entitled to a court-provided translator. See Desulma v. Goolsby, No.
98CIV.2078(RMB)(RLE), 1999 WL 147695, at *1 (S.D.N.Y. Mar. 16, 1999) (“In general, a pro
se civil plaintiff is not entitled to an interpreter or translator.”); Vargas-Rodriguez v. Ortiz, No. CV
18-2628(RMB), 2019 WL 2366968, at *6 (D.N.J. June 5, 2019) (collecting cases). Plaintiff elected
to file the lawsuit, Plaintiff is not indigent, and Plaintiff shall be required to locate and provide his
own translator for future court proceedings at which he desires the presence of a Chinese
translator.3
VII.

Defendant’s Motion for Protective Order (ECF No. 94)
In this motion for protective order, which was filed August 11, 2020, Defendant seeks a

protective order that (1) requires Plaintiff to seek leave of Court before filings any further pleadings
or motions; (2) requires Plaintiff to seek leave of court before serving Defendant with any
additional discovery requests or notices of depositions; and (3) excuses Defendant’s obligation to
respond to ECF Nos. 85, 86, and 89. ECF No. 94 at 6-7. On August 12, 2020, by minute order,
the Court excused Defendant’s response obligations and prohibited Plaintiff from filing further
motions on a temporary basis, until the Court had the opportunity to rule on Defendant’s motion
for protective order. ECF No. 95.4 The Court then ordered Plaintiff to respond to the motion for
protective order, and Plaintiff filed a substantive response. ECF No. 104. Plaintiff argues that

3

This ruling may be revisited at the time of any scheduled hearing or trial, or upon assessing the
difficulty of conducting proceedings if Plaintiff fails to provide his own translator. This ruling
will not be revisited for purposes of depositions.
This minute order was not intended as a permanent filing restriction or other sanction. Instead,
it was intended to pause Plaintiff’s filings while the Court resolved the motion for protective order
and numerous other motions. This effort was largely unsuccessful, as Plaintiff filed six different
“objections” following the Court’s minute order. ECF Nos. 100-105.

4

8
APPENDIX C

14a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 9 of 11

Defendant has been “abusing protective orders” and that Defendant has blatantly misled the Court
on numerous occasions. Id. at 1.
The Court may issue a protective order to protect a party from annoyance, embarrassment,
oppression, or undue burden or expense in responding to discovery. Fed. R. Civ. P. 26(c)(1);
Boughton v. Cotter Corp., 65 F.3d 823, 829-30 (10th Cir. 1995) (“Rule 26(c) is broader in scope
than the attorney work product rule, attorney-client privilege and other evidentiary privileges
because it is designed to prevent discovery from causing annoyance, embarrassment, oppression,
undue burden or expense not just to protect confidential communications.”).
Defendant has adequately shown the need for protection from undue burden in relation to
Plaintiff’s discovery practices. To be clear, Plaintiff has filed non-frivolous discovery motions,
including his original motion to compel discovery responses. However, following the Court’s
ruling on his first motion to compel, Plaintiff filed several frivolous motions to compel burdensome
and repetitive discovery requests that directly contradict this Court’s orders. In total, Plaintiff has
now issued eleven different sets of discovery, including five sets of requests for production.
Plaintiff has also filed frivolous motions for sanctions and contempt, accusing Defendant of
deceitful and sanctionable discovery conduct without justification. Plaintiff has also objected to
every unfavorable ruling issued by the Court, requiring Defendant to respond to frivolous
objections. This has posed an undue burden on Defendant and the Court’s docket.
Based on Plaintiff’s conduct to date, the Court finds good cause for issuance of a limited
protective order pursuant to Rule 26(c)(1) to manage discovery, avoid unnecessary expense, and
avoid burdensome discovery-related motion practice. The Court issues a protective order that
prohibits Plaintiff from: (1) issuing any further written discovery requests to Defendant, either in
the form of interrogatories or requests for production, absent leave of Court; or (2) filing further
motions for contempt or sanctions in relation to any of Defendant’s written discovery responses.
9
APPENDIX C

15a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 10 of 11

Defendant is excused from filing responses to ECF Nos. 85, 86, and 89, which the Court finds to
be frivolous discovery-related motions that do not require a response.
The Court lifts the prohibition on Plaintiff’s ability to file motions. See ECF No. 95. At
this time, the Court declines to impose any permanent filing restrictions as a sanction under Federal
Rule of Civil Procedure 11 or to invoke the Court’s inherent powers to control abusive litigation
conduct. See generally Hutchinson v. Hahn, No. 05-CV-453-TCK PJC, 2007 WL 2572224, at *5
(N.D. Okla. Sept. 4, 2007) (explaining Rule 11 sanctions, court’s inherent power to impose
sanctions, and notice requirements prior to imposing sanctions). The Court declines to do so for
two reasons. First, Defendant’s motion was styled as one for protective order and did not expressly
reference “sanctions” in the title, causing a potential notice problem. Second, the motion was
automatically referred to the undersigned because it was styled as a motion for protective order.
Any motion for Rule 11 sanctions, or sanctions under the Court’s inherent power, are within the
province of the district judge, absent an express referral. If Defendant seeks to impose sanctions
against Plaintiff under Rule 11 or otherwise, it shall file a properly styled motion that clearly
triggers procedural rules governing such motions.
VIII. Conclusion
It is hereby ORDERED that:
1. Defendant’s request for special discovery management limitations (ECF No. 80, Part
VIII.F, referred by ECF No. 92) is GRANTED. The Court imposes a discovery
management limit of four (4) fact witness depositions for both parties.
2. Defendant’s Motion to Quash and for Protective Order (ECF Nos. 51, 54) are
DENIED without prejudice to refiling.
3. Plaintiff’s Motion to Compel and for Sanctions (ECF No. 60) is DENIED.
4. Plaintiff’s Motion to Compel and for Sanctions (ECF No. 86) and Plaintiff’s Motion
for Contempt (ECF No. 89) are DENIED.
5. Plaintiff’s Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.
10
APPENDIX C

16a

Case 4:19-cv-00554-JFH-JFJ Document 108 Filed in USDC ND/OK on 09/21/20 Page 11 of 11

6. Plaintiff’s Motions for Chinese (Mandarin) Translator (ECF Nos. 18, 42) are DENIED.
7. Defendant’s Motion for Protective Order (ECF No. 94) is GRANTED in part, and the
Court enters the following protective order. Plaintiff is prohibited from:
(1) issuing any further written discovery requests to Defendant, absent leave of
Court; and
(2) filing any further motions for contempt or sanctions in relation to any of
Defendant’s current discovery responses.5
8.

The Court declines to impose the sanction of filing restrictions at this time, and the
temporary restriction imposed by ECF No. 94 is lifted.

SO ORDERED this 21st day of September, 2020.

J
ODIF.
J
AYNE,
MAGI
STRATEJ
UDGE
UNI
TEDSTATESDI
STRI
CTCOURT

5

The Court’s prior Protective Order, which requires Plaintiff to seek leave of court to issue thirdparty subpoenas and avoid threatening or harassing behavior to third parties, also remains in place.
See ECF No. 37 at 10.
11
APPENDIX C

17a

Case 4:19-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.

Case No. 19-cv-00554-JFH-JFJ

LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.
ORDER
Before the Court is the Motion for Objecting to the Court Order to Refer “Plaintiff’s Motion
for Change of Magistrate Judge” to Magistrate Judge Herself (“Motion”) [Dkt. No. 85] filed by
Plaintiff Bo Zou (“Plaintiff”). Plaintiff filed a Motion for Change of Magistrate Judge [Dkt. No.
40] citing 28 U.S.C. § 455(a). Dkt. No. 40 at 1. The cited statute governs the recusal of “any
justice, judge, or magistrate judge of the United States . . . .” 28 U.S.C. § 455(a). Additionally,
the statute provides that the judge “shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” Id. (emphasis added). The statute does not provide
a means for a district judge to disqualify a magistrate judge. Therefore, this Court appropriately
referred the Motion for Change of Magistrate Judge to Magistrate Judge Jayne to be considered
pursuant to Section 455. Dkt. No. 83.
As an initial matter, the Motion is moot as Judge Jayne has already considered Plaintiff’s
Motion for Change of Magistrate Judge. Dkt. No. 109. Furthermore, Plaintiff cites no authority
for his position that the Court should reassign a different magistrate judge to his case. See Dkt.
No. 85 at 1. Judge Jayne has determined recusal is not appropriate here, and Plaintiff is not entitled
to choose the judge assigned to his case. “Litigants, either civil or criminal, have no right to choose

APPENDIX D

18a

Case 4:19-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20 Page 2 of 2

the judge to whom their case is assigned, unless for some reason that particular judge is disqualified
from hearing the case.” United States v. Burney, No. 07-cr-137, 2012 WL 273922, at *3 (S.D.
Ohio Jan. 31, 2012); McCuin v. Texas Power & Light Co. 714 F.2d 1255, 1265 (5th Cir. 1983)
(“Judges do not choose their cases, and litigants to do not choose their judges.”).
Furthermore, the Court has reviewed Plaintiff’s Motion for Objecting to Magistrate Judge’s
Opinion and Order, and Motion to Deny or Remove Magistrate Judge’s Injunctions [Dkt. No. 114]
wherein Plaintiff argued Judge Jayne’s decision to not recuse herself was clearly erroneous and
contrary to law. See Dkt. No. 114 at 9-11. The Court concluded Judge Jayne’s decision was not
clearly erroneous or contrary to law.
IT IS THEREFORE ORDERED that Plaintiff’s Motion for Objecting to the Court Order
to Refer “Plaintiff’s Motion for Change of Magistrate Judge” to Magistrate Judge Herself [Dkt.
No. 85] is DENIED.
IT IS FURTHER ORDERED that the case remains stayed pending resolution of this
Court’s ruling on Defendant’s Motion for Sanctions [Dkt. No. 112]. See Dkt. No. 130.
DATED this 14th day of December, 2020.
____________________________________
JOHN F. HEIL, III
UNITED STATES DISTRICT JUDGE

APPENDIX D

19a

§ 1651. Writs, 28 USCA § 1651

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part V. Procedure
Chapter 111. General Provisions (Refs & Annos)
28 U.S.C.A. § 1651
§ 1651. Writs
Currentness
(a) The Supreme Court and all courts established by Act of Congress may issue all writs necessary or appropriate in aid of their
respective jurisdictions and agreeable to the usages and principles of law.
(b) An alternative writ or rule nisi may be issued by a justice or judge of a court which has jurisdiction.
CREDIT(S)
(June 25, 1948, c. 646, 62 Stat. 944; May 24, 1949, c. 139, § 90, 63 Stat. 102.)
28 U.S.C.A. § 1651, 28 USCA § 1651
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E

20a 1

§ 455. Disqualification of justice, judge, or magistrate judge, 28 USCA § 455

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part I. Organization of Courts (Refs & Annos)
Chapter 21. General Provisions Applicable to Courts and Judges
28 U.S.C.A. § 455
§ 455. Disqualification of justice, judge, or magistrate judge
Currentness
(a) Any justice, judge, or magistrate judge of the United States shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge of disputed evidentiary facts
concerning the proceeding;
(2) Where in private practice he served as lawyer in the matter in controversy, or a lawyer with whom he previously practiced
law served during such association as a lawyer concerning the matter, or the judge or such lawyer has been a material witness
concerning it;
(3) Where he has served in governmental employment and in such capacity participated as counsel, adviser or material witness
concerning the proceeding or expressed an opinion concerning the merits of the particular case in controversy;
(4) He knows that he, individually or as a fiduciary, or his spouse or minor child residing in his household, has a financial
interest in the subject matter in controversy or in a party to the proceeding, or any other interest that could be substantially
affected by the outcome of the proceeding;
(5) He or his spouse, or a person within the third degree of relationship to either of them, or the spouse of such a person:
(i) Is a party to the proceeding, or an officer, director, or trustee of a party;
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially affected by the outcome of the proceeding;
(iv) Is to the judge's knowledge likely to be a material witness in the proceeding.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX F

21a 1

§ 455. Disqualification of justice, judge, or magistrate judge, 28 USCA § 455

(c) A judge should inform himself about his personal and fiduciary financial interests, and make a reasonable effort to inform
himself about the personal financial interests of his spouse and minor children residing in his household.
(d) For the purposes of this section the following words or phrases shall have the meaning indicated:
(1) “proceeding” includes pretrial, trial, appellate review, or other stages of litigation;
(2) the degree of relationship is calculated according to the civil law system;
(3) “fiduciary” includes such relationships as executor, administrator, trustee, and guardian;
(4) “financial interest” means ownership of a legal or equitable interest, however small, or a relationship as director, adviser,
or other active participant in the affairs of a party, except that:
(i) Ownership in a mutual or common investment fund that holds securities is not a “financial interest” in such securities
unless the judge participates in the management of the fund;
(ii) An office in an educational, religious, charitable, fraternal, or civic organization is not a “financial interest” in securities
held by the organization;
(iii) The proprietary interest of a policyholder in a mutual insurance company, of a depositor in a mutual savings association,
or a similar proprietary interest, is a “financial interest” in the organization only if the outcome of the proceeding could
substantially affect the value of the interest;
(iv) Ownership of government securities is a “financial interest” in the issuer only if the outcome of the proceeding could
substantially affect the value of the securities.
(e) No justice, judge, or magistrate judge shall accept from the parties to the proceeding a waiver of any ground for
disqualification enumerated in subsection (b). Where the ground for disqualification arises only under subsection (a), waiver
may be accepted provided it is preceded by a full disclosure on the record of the basis for disqualification.
(f) Notwithstanding the preceding provisions of this section, if any justice, judge, magistrate judge, or bankruptcy judge to
whom a matter has been assigned would be disqualified, after substantial judicial time has been devoted to the matter, because
of the appearance or discovery, after the matter was assigned to him or her, that he or she individually or as a fiduciary, or his
or her spouse or minor child residing in his or her household, has a financial interest in a party (other than an interest that could
be substantially affected by the outcome), disqualification is not required if the justice, judge, magistrate judge, bankruptcy
judge, spouse or minor child, as the case may be, divests himself or herself of the interest that provides the grounds for the
disqualification.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX F

22a 2

§ 455. Disqualification of justice, judge, or magistrate judge, 28 USCA § 455

CREDIT(S)
(June 25, 1948, c. 646, 62 Stat. 908; Pub.L. 93-512, § 1, Dec. 5, 1974, 88 Stat. 1609; Pub.L. 95-598, Title II, § 214(a), (b),
Nov. 6, 1978, 92 Stat. 2661; Pub.L. 100-702, Title X, § 1007, Nov. 19, 1988, 102 Stat. 4667; Pub.L. 101-650, Title III, § 321,
Dec. 1, 1990, 104 Stat. 5117.)
28 U.S.C.A. § 455, 28 USCA § 455
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX F

23a 3

7

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Bo Zou

Plaintiff/Petitioner,

District Court Case No.

4: 19-cv-00554-JFH-JFJ

v.

In re Petition for Writ of
Prohibition

Linde Engineering North America, Inc.

Defendant/Respondent.

In re Petition for Writ of Prohibition

Pursuant to Fed. R. APP. P. 21, Petitioner, BO ZOU, respectfully petitions the
Tenth Circuit to issue a writ of prohibition restraining Jodi F. Jayne, Magistrate Judge of
the U.S. District Court for the Northern District of Oklahoma as a magistrate judge from
Petitioner's case in any further proceedings in the matter of Bo Zou v. Linde Engineering

North America, Inc., Case No. 4:19-cv-00554-JFH-JFJ. This Petition follows the denial
order of a timely-filed motion to appeal to District Judge John F. Heil. See Appendix "l ".

I.

Relief sought by Petitioner

An order directing Magistrate Judge Jodi F. Jayne to be prohibited from Petitioner's
case in any further proceedings in the matter of Bo Zou v. Linde Engineering North

America, Inc., Case No. 4:19-cv-00554-JFH-JFJ.
1
APPENDIX G

24a

Appellate Case: 21-5002

Document: 010110464783

II.

Date Filed: 01/13/2021

Page: 2

Issues Presented

May Magistrate Judge Jodi F. Jayne refuse to disqualify herself and the District
Judge refuse to remove her from Petitioner's case with the issues listed as follows?
1. May Magistrate Judge Jodi F. Jayne improperly discuss with Respondent and
Respondent's counsels?
2. May Magistrate Judge Jodi F. Jayne initially and actively offer Respondent to
provide an ex parte letter for her without any requests for ex parte communication by
Respondent?
3. May Magistrate Judge Jodi F. Jayne initially and actively offer Respondent a
discovery protective order only for producing emails between two custodians, in which
discussion is possibly only involving in Defendant's internal response to Plaintiffs
complaints,? Later, how may Magistrate Judge Jodi F. Jayne issue the protective order for
the discovery to help Respondent in this case without a good cause?
4. May Magistrate Judge Jodi F. Jayne knowingly, willfully and blatantly violate U.S.
Statutes and Federal Rules of Civil Procedure to rule on some motions she never has any
authorities to help and protect Respondent?
5. May Magistrate Judge Jodi F. Jayne willfully and blatantly violate U.S. Statutes and
Federal Rules of Civil Procedure to issue temporary restraining order and preliminary
injunctions?
6. How could Magistrate Judge Jodi F. Jayne display deepseated favoritism to Respondent,
and antagonism to Petitioner in the lawsuit? Which include following:
(A). May Magistrate Judge Jodi F. Jayne blatantly violate U.S. laws to help and
2

APPENDIX G

25a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 3

protect Respondent and Respondent counsels' guilt, cnme, contempt and copyright
infringement?
(B). How could Magistrate Judge make up false statements against Petitioner in the
case?
(C). May Magistrate Judge Jodi F. Jayne issue a minute order to force Petitioner to
answer Respondent's a unilaterally special discovery management order to help
Respondent's requests in (1) changing deposition for 6-10 fact witnesses to 4 fact
witnesses, (2) limiting the parties to seventy-five (75) total requests for production?

III.

Statement of Facts

Plaintiff/Petitioner filed Petitioner's complaints against Defendant/Respondent's
discrimination against Petitioner's race and age on October 18, 2019. In discovery phase,
magistrate judge has violated U.S. laws, Statutes, Code of Conduct for United States
Judges, Federal Rules of Civil Procedure to discuss with Respondent and Respondent's
counsels improperly, abuse her power in excess of her jurisdiction, and display
deepseated favoritism to Respondent, and antagonism to Petitioner.
So, Petitioner filed Plaintiff's Motion for Change of Magistrate Judge (Dkt. No. 40)
on June 1, 2020. But, magistrate judge refused to disqualify herself. See Appendix "2",
Pgs. 5-7. Petitioner filed Plaintiffs appeal to the district judge on October 2, 2020. See
Dkt. No. 114, Pgs. 9-11. Finally, the District Judge denied Petitioner's motion. See
Appendix "l". Therefore, Petitioner must petition the Tenth Circuit for a Writ of
Prohibition. The facts are listed as follows:

(a). Magistrate judge has improper discussion with Respondent and
3

APPENDIX G

26a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 4

Respondent's counsels
In discovery phase, Plaintiff requested Defendant to produce documents in
Plaintiffs first and second set of requests for production of documents. However,
Defendant refused to produce the documents. So, on March 9, 2020, Plaintiff filed

"Plaintiff's motion to compel production of documents and for sanctions responsive to
Plaintiff's first request for documents" (Dkt. No. 22) to the district court. In Plaintiffs
reply in support of Plaintiffs motion to compel and for sanctions, Plaintiff requested the
district court to compel Defendant producing Defendant's internal investigation
documents "Linde [Zou} Priv 0004, 0005 & 0006". See Dkt. No. 28, Pg. 6.

PRIV 0004, 0005 & 0006 (See Dkt. No. 28, EXHIBIT "2") are internal investigation
documents made by HR department of Defendant for Plaintiffs internal complaint prior
to reduction-in-force. PRIV 0004, 0005 & 0006 are never work product privilege, and
should have been compelled by the district court. But, magistrate judge initially and

actively offered Defendant an exparte letter. Magistrate judge stated that "Defendant's

description is not sufficient to establish a 'work product' privilege. Defendant may either
produce the documents, or submit the documents in camera to the Court for review,
along with an explanation via ex parte letter to the Court as to why these notes and
memorandum qualify for a work product privilege". See Appendix "3", Pg. 7.
Further, magistrate judge ordered Defendant "to submit its ex parte letter. with

attached documents, no later than JO days from the date of this Order, if desired". See
Appendix 3, Pg. 12. It demonstrates that magistrate judge improperly discussed with
Defendant about ex parte letter for Defendant's internal investigation documents "Linde
4

APPENDIX G

27a

Appellate Case: 21-5002

[Zou} Priv0004,

Document: 010110464783

Date Filed: 01/13/2021

Page: 5

0005 & 0006" because Defendant never requested ex parte

communication via any motions.
Also, magistrate judge initially and actively granted Defendant a protective order
for the emails only between two custodians. See Appendix 3, Pgs. 4, 5. These requested
emails are very common emails only possibly involving in Defendant's internal response
to Plaintiffs complaints. Later, the protective order was granted Defendant for
production of documents in the case without a good cause. Defendant falsified a lot of
documents under the protective order. Magistrate judge's behaviors demonstrate
magistrate judge improper discussion with Defendant for the protective order, either.

(b ). Magistrate judge covered and protected Defendant and Defendant
counsels' guilt, crime, contempt and copyright infringement; and abused her power
in ruling on some motions, and issuing temporary restraining order and
preliminary injunctions without authorities and jurisdictions
In Plaintiff's Motion to Compel Production ofDocuments for Fourth Set ofRequests
for Documents, and Motion for Sanctions (Dkt. No. 86) filed on July 31, 2020, Plaintiff

provided factual evidence for the District Court that Defendant and Defendant's counsels
committed guilt and crime in perjury and falsified documents in answering Plaintiffs

first and second sets of interrogatories. See Dkt. No. 86.
(1). In answering Plaintiffs First set of Requests of Interrogatories No. 8,
Defendant stated that "Kenny Sharp and Dustin Duncan are both tenured Piping
Engineers with design experience, .... ". See Dkt. 86, EXHIBIT "9", Pg. 7 (emphasis

added).
5

APPENDIX G

28a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 6

(2). In answering Plaintiffs Second set of interrogatories No. 20, Defendant stated
that "There is not a position titled as 'tenured' Piping Engineer. Piping Engineers Kenny

Sharp and Dustin Duncan began working at Linde before than Plaintiff, making them
senior in tenure and status to Plaintiff at the time of the reduction-in-force. ... "See Dkt.
No. 86, EXHIBIT "10", Pg. 4 (emphasis added).
(3). However, in answering Plaintiffs Third set of interrogatories No. 23,
Defendant stated that "Dustin Duncan was hired as a PDS Designer 1 on or about April

11, 2011. He was promoted to Piping Designer II on or about April 1, 2013. On or about
January 4, 2016, he was promoted to Piping Design Engineer. Kenny Sharp was hired
as a Piping Designer on or about June 23, 2014. He was promoted to Piping Design
Engineer on or about August 27, 2018. "See Dkt. No. 86, EXHIBIT "3" Pg. 4 (emphasis

added). From Defendant's answers in Plaintiffs Third set of interrogatories, both Dustin
Duncan and Kenny Sharp's job titles are piping design engineer only, NOT "piping
engineer". Defendant committed perjury in fasifying Kenny Sharp and Dustin Duncan's

job titles as "Piping Engineers".
(4). In the documents "Linde [Zou] 001071-Linde [Zou} 001076" provided by
Defendant (Dkt. No. 86, EXHIBIT "11"), this Court can see both Dustin Duncan and
Kenny Sharp's job titles are piping design engineer only, NOT "piping engineer".
(5). Plaintiff also provided the factual evidence for the Court to show both Dustin
Duncan and Kenny Sharp's job titles are Piping Design Engineers. Both of them are 36
year old on October 18, 2019. The factual evidence shows only Plaintiffs job title is
piping engineer. See Dkt. No. 146, EXHIBIT "1", or Dkt. No. 1, Pgs. 24, 25.
6

APPENDIX G

29a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 7

(6). Defendant also admitted both Dustin Duncan and Kenny Sharp were piping
design engineers, and they only reported to Eli McDaniel, NOT to the engineering
manager Gerald (Jerry) Gump in answering Plaintiffs first set of requests for admissions.

See Dkt. No. 30, EXHIBIT "3", Pg. 6, Admission Nos. 2, 3.
(7). Defendant denied both Dustin Duncan and Kenny Sharp were piping engineers
until the end of August, 2020. See Dkt. No. EXHIBIT "4", Pg. 5, Admission No. 18.
(8). Defendant also admitted Plaintiffs job title is piping engineer. See Dkt. No. 30,
EXHIBIT "3", Pg. 6, Admission No. 1.
Plaintiff is unique piping engineer at Defendant. Piping engineer is Plaintiffs job
title. Defendant and Defendant's counsels falsified fake job titles for both Dustin Duncan
and Kenny Sharp to try to demonstrate both Dustin Duncan and Kenny Sharp were senior

in tenure and status to Plaintiff at the time of the reduction-inforce. But, Defendant and
Defendant counsels' falsification failed and committed perjury. So, Defendant and
Defendant's counsels are guilty of perjury and shall, except as otherwise expressly
provided by law, be fined under this title or imprisoned not more than five years, or both
pursuant to 18 U.S. Code § 1621 (2) because Defendant signed under penalty of perjury
under 28 U.S. Code § 1746. See Dkt. No. 30, EXHIBIT "4"; Dkt. No. 60, EXHIBIT "4";
Dkt. No. 86, EXHIBIT "5", or Dkt. No. 125, EXHIBITS "2", "3".
Moreover, Defendant committed perjury in denying withholding any other
documents on the basis of attorney client privilege or the work product doctrine. See Dkt.
38, EXHIBIT "A", Pg. 3.
Further, Defendant and Defendant's counsels committed cnme m falsifying
7

APPENDIX G

30a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 8

documents.
(1). In Linde [Zou] 001071-Linde [Zou] 001073, Defendant falsified some contents
and data, intentionally deleted Dustin Duncan's position between January 1, 2020 and
June, 2020. See Dkt. No. 86, EXHIBIT "11".
(2). In Linde [Zou] 001075, Kenny Sharp's job position is intentionally deleted in
the period between January 1, 2020 and May 6, 2020. See Dkt. No. 86, EXHIBIT "11".
(3). Defendant falsified the document Linde [Zou] 000289, See Dkt. 22, EXHIBIT
VII (1 ). Plaintiff has shown magistrate judge how Defendant falsified the document. See
Dkt. 22, Pg. 7; Dkt. 28, Pgs. 5, 6.
Defendant and Defendant's counsels must be severely punished pursuant to 8 U.S.
Code §1324c, Oklahoma Statue title 21, § 1572 and Oklahoma Statue title 21, §1624.
However, magistrate judge Jodi F. Jayne intentionally overlooked, ignored and
never considered the facts and factual evidence, which demonstrate Defendant and
Defendant counsels' perjury and falsified document. Magistrate judge never mentioned
or discussed Defendant and Defendant counsels' perjury and falsified document in her
rulings. See Appendix 2, Pg. 5. Later, magistrate judge ruled on Plaintiffs motion for
sanctions (Dkt. No. 86) as frivolous without any causes and a hearing to cover and
protect Defendant and Defendant counsels' guilt and crime. See Appendix 2, Pg. 10.
On August 6, 2020, Petitioner filed Plaintiff's motion for contempt (Dkt. No. 89) for
Defendant's violation of the Court orders and refusal to produce the documents, RFP 2, 3,
4, 6, 7, 21, 26, ordered twice by magistrate judge Jodi F. Jayne herself. See Appendix 3,
Pgs. 3, 5, 6; Appendix 4, Pg. 3. It's in contempt of the Court for Respondent to refuse to
8

APPENDIX G

31a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 9

abide by the Court's order to produce the documents.
Pursuant to 28 U.S. Code § 636 (e)(4), 1 magistrate judge does NOT have any civil
contempt authority unless both parties consent to magistrate judge. In this case, both
parties never consent to magistrate judge. However, magistrate judge knew that she does
not have any civil contempt authority; but, willfully and blatantly used General Order
05-09 of the District Court to supersede 28 U.S. Code §636 (e)(4) 2 to rule on Plaintiff's
motion for contempt (Dkt. No. 89). See Appendix 2, Pg. 1, footnote "l". Later, magistrate
judge ruled on Plaintiff's motion for contempt as frivolous motion without any causes to
cover and protect Defendant and Defendant counsels' contempt. See Appendix 2, Pg. 10.
Also, magistrate judge knowingly violated 28 U.S. Code § 636 (b)(l)(A) to issue
preliminary injunctions to prohibit Plaintiff from filing any further motions for contempt.
Although Petitioner objected to magistrate judge's rulings and orders to cover and
protect Respondent and Respondent counsels' guilt, crime and contempt over and over;
and provided the factual evidence for the district court. See Dkt. Nos. 110, 111, 114, 125.
But, magistrate judge continued coving and protecting Respondent and Respondent

1

(4) Civil contempt authority in civil consent and misdemeanor cases.-

In any case in which a United States magistrate judge presides with the consent of the parties
under subsection (c) of this section, and in any misdemeanor case proceeding before a magistrate
judge under section 3401 of title 18, the magistrate judge may exercise the civil contempt
authority of the district court. This paragraph shall not be construed to limit the authority of a
magistrate judge to order sanctions under any other statute, the Federal Rules of Civil Procedure,
or the Federal Rules of Criminal Procedure. (emphasis added)
2

(A) a judge may designate a magistrate judge to hear and determine any pretrial matter pending

before the court, except a motion for injunctive relief. for judgment on the pleadings, for
summary judgment, ... (emphasis added)
9

APPENDIX G

32a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 10

counsels' guilt, crime and contempt in her "Report and Recommendation". See Dkt. No.
136.
It demonstrates magistrate judge's deepseated favoritism to Respondent, and

antagonism to Petitioner even Respondent and Respondent counsels' guilt, crime
and contempt could be covered and protected.
On March 4, 2020, Petitioner filed Plaintiff's motion for imposing sanction on

Defendant's copyright infringement and providing "made up " evidence and allegation
(Dkt. No. 34) under Fed. R. Civ. P. 11 because Defendant illegally got Plaintiffs email
from Plaintiffs former employer ICC Group Inc. ("ICC") to allege Plaintiff threatened
the employees at ICC. Magistrate judge Jodi F. Jayne knew that she never has any
authority to rule on Petitioner's motion for imposing sanction on Respondent's copyright
infringement and providing "made up" evidence and allegation under Fed. R. Civ. P. 11.
However, magistrate judge blatantly violated Federal Rules of Civil Procedure to rule on
and deny Petitioner's motion for imposing sanction on Respondent's copyright
infringement without any causes and a hearing. See Appendix 4, Pg. 1.
Besides prohibiting Plaintiff from filing any further motions for contempt in
violation of 28 U.S. Code § 636 (b)(l)(A), magistrate judge knowingly violated Fed. R.
Civ. P. 65 (b) to issue a temporary restraining order to prohibit Petitioner from filing
further motions. See Dkt. No. 95. Furthermore, magistrate judge issued preliminary
injunctions to prohibit Petitioner from following:

(i). Prohibiting Appellant from filing any furtber motions for contempt or

for sanctions in relation to any of Appellee's current discovery responses.

10

APPENDIX G

33a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 11

(ii). Prohibiting Appellant from issuing any further written discovery requests

to Appellee, absent leave of Court.
(iii). Limiting Appellee's deposition to four (4) fact witnesses.

See Appendix 2, Pgs. 9, 11.
Above factual evidence demonstrates magistrate judge's deepseated favoritism to
Respondent, and antagonism to Petitioner, either. Also, it demonstrates magistrate judge
abused her power in excess of her jurisdiction to help and protect Respondent.

(c). Magistrate judge made up some false statements against Petitioner and
forced

Petitioner

to

answer

Respondent's

unilaterally

Special

Discovery

Management Order
Magistrate judge made up some false statements against Petitioner in her rulings,
such as "Although Plaintiff contends only threatening legal action, certain language

could be viewed as threats to the safety ofICC and its employees." See Appendix "3", Pg.
11. However, Plaintiff never contended that Plaintiffs email to ICC is threatening legal
action in Plaintiffs any motions filed to the district court. By contrast, Plaintiff objected
to magistrate judge's "made up" false statements over and over. See Dkt. No. 38, Pg. 7;
and Dkt. No. 76, Pg. 4.
Moreover, magistrate judge intentionally made up the other false statement that

"and (3) the two Joint Status Reports setting forth detailed factual summaries." See
Appendix "2", Pg. 2. However, there is NEVER the second joint status report to exist in
the lawsuit. Plaintiff objected to the District Court's order to file the second joint status
report. See Dkt. No. 72. Also, Plaintiff timely objected to magistrate judge's "made up"
11

APPENDIX G

34a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 12

false statements. See Dkt. No. 114, Pg. 4
Furthermore, on August 10, 2020, magistrate judge issued a minute order (Dkt. No.
93) to force Petitioner to answer Respondent's a unilaterally Special Discovery
Management Order in Defendant's unilateral status report (Dkt. No. 80) to help
Respondent. Respondent wanted to change and alter some terms agreed by both parties in
the joint status report (Dkt. No. 16), such as (1) changing deposition for 6-10 fact
witnesses to 4 fact witnesses, (2) limiting the parties to seventy-five (75) total requests
for production, etc.
Magistrate judge's behaviors demonstrate magistrate judge's deepseated favoritism
to Respondent, and antagonism to Petitioner, again.
All the forgoing facts support Petitioner's assertions on magistrate judge's improper
discussion with Respondent and Respondent's counsels, abusive power and Magistrate
judge's deepseated favoritism to Respondent, and antagonism to Petitioner.

IV.

Statement of Reasoning for the Issuance of a Writ

Writs of Prohibition arrest the proceeding of any "tribunal, corporation, board or
person exercising judicial functions, when such proceedings are without or in excess of
the jurisdiction of such tribunal, corporation, board or person. Such writ may be issued
when no plain, speedy and adequate remedy exists in the ordinary course of law.
Title 28 U.S.C. § 455(a) provides that a judge "shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned." The goal of this
provision is to avoid even the appearance of partiality. See Liljeberg v. Health Servs.

Acquisition Corp., 486 U.S. 847, 860 (1988). Pursuant to § 455, a court is not required to
12

APPENDIX G

35a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 13

accept the factual allegations as true "and the test is whether a reasonable person,
knowing all the relevant facts, would harbor doubts about the judge's impartiality." Glass,
849 F.2d at 1268 (internal quotation marks omitted). The standard is objective and the

inquiry is limited to outward manifestations and reasonable inferences drawn therefrom.
See United States v. Cooley, 1 F.3d 985, 993 (10th Cir. 1993).

Petitioner has clearly established genuine question concerning magistrate judge's
impartiality (1) Magistrate Judge Jodi F. Jayne had improper discussion with Respondent
and Respondent's counsels. (2) Magistrate Judge abused her power in excess of her
jurisdiction in ruling on some motions she never has any authorities, and issuing
temporary restraining order and preliminary injunctions to help and protect Respondent.
(3) Magistrate Judge displayed deepseated favoritism to Respondent, and antagonism to
Petitioner. Magistrate Judge Jodi F. Jayne initially and actively offered Defendant ex
parte letter, and protective order for discovery not only demonstrated magistrate judge

had improper discussion with Defendant and Defendant's counsels, but also violated
Code of Conduct for United States Judges Cannon 3A (4), either. From magistrate
judge's rulings and minute orders or protective order (Dkt. Nos. 37, 70, 93, 95, 108), the
Tenth Circuit can see magistrate judge's deepseated favoritism to Respondent, and
antagonism to Petitioner, and "improper legaf' offense in helping and protecting
Respondent and Respondent's counsels' guilt, cnme, contempt and copyright
infringement, etc.
Moreover, magistrate judge knowingly violated U.S. laws and Statutes to rule on
Plaintiffs motion to imposing sanction on Defendant's copyright infringement (Dkt. No.
13

APPENDIX G

36a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 14

34) and Plaintiff's motion for contempt (Dkt. No. 89) without any authorities. Also,
magistrate judge knowingly, willfully and blatantly violated Fed. R. Civ. P. 65(b) to issue
temporary restraining order (Dkt. No. 95) and 28 U.S. Code § 636 (b)(l)(A) to issue
preliminary injunctions. Magistrate judge's behaviors were in excess of the jurisdiction
U.S. laws grant a magistrate judge.
This petition complies with the requirements of a Writ of Prohibition.

V.

Conclusion

In accordance with foregoing, Petitioner respectfully requests the Tenth Circuit for a
Writ of Prohibition directing Magistrate Judge Jodi F. Jayne to be prohibited from
Petitioner's case in any further proceedings in the matter of Bo Zou v. Linde Engineering

North America, Inc.
The Petition for a writ of Prohibition should be granted.

14
APPENDIX G

37a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 15

Respectfully Submitted,
Signature
Date: January 11, 2021
Bo Zou
4920

s Yorktown Avenue, #122

Tulsa, OK 74105
Phone: 713-835-8655

15

APPENDIX G

38a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 16

CERTIFICATE OF SERVICE
I hereby certify that on _ _ _January 11, 2021 _ _ _ _ I sent a copy of
In re Petition for Writ of Prohibition to Respondent's counsels Jonathan G. Rector and
Jessica L. Craft, at JRector@litteler.com, Craft@littler.com, LHedrick@littler.com;
LSchwenkel@littler.com, the last known address/email address, by _ _email_ __

January 11, 2021
Date

Signature
Bo Zou
4920 S Yorktown Avenue, # 122
Tulsa, OK 74105
Phone: 713-835-8655

16

APPENDIX G

39a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 17

Appendix "1"

APPENDIX G

40a

Case 4:19-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20 Page 1 of 2
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 18

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA

BO ZOU,

Plaintiff,

v.

Case No.19-cv-00554-JFH-JFJ

LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.
ORDER

Before the Court is the Motion for Objecting to the Court Order to Refer "Plaintiffs Motion
for Change of Magistrate Judge" to Magistrate Judge Herself ("Motion") [Dkt. No. 85] filed by
Plaintiff Bo Zou ("Plaintiff'). Plaintiff filed a Motion for Change of Magistrate Judge [Dkt. No.
40] citing 28 U.S.C. § 455(a). Dkt. No. 40 at 1. The cited statute governs the recusal of "any
justice, judge, or magistrate judge of the United States .... " 28 U.S.C. § 455(a). Additionally,
the statute provides that the judge "shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned." Id. (emphasis added). The statute does not provide
a means for a district judge to disqualify a magistrate judge. Therefore, this Court appropriately
referred the Motion for Change of Magistrate Judge to Magistrate Judge Jayne to be considered
pursuant to Section 455. Dkt. No. 83.
As an initial matter, the Motion is moot as Judge Jayne has already considered Plaintiffs
Motion for Change of Magistrate Judge. Dkt. No. 109. Furthermore, Plaintiff cites no authority
for his position that the Court should reassign a different magistrate judge to his case. See Dkt.
No. 85 at 1. Judge Jayne has determined recusal is not appropriate here, and Plaintiff is not entitled
to choose the judge assigned to his case. "Litigants, either civil or criminal, have no right to choose

APPENDIX G

41a

Case 4:19-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20 Page 2 of 2
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 19

the judge to whom their case is assigned, unless for some reason that particular judge is disqualified
from hearing the case." United States v. Burney, No. 07-cr-137, 2012 WL 273922, at *3 (S.D.
Ohio Jan. 31, 2012); McCuin v. Texas Power & Light Co. 714 F.2d 1255, 1265 (5th Cir. 1983)
("Judges do not choose their cases, and litigants to do not choose their judges.").
Furthermore, the Court has reviewed Plaintiffs Motion for Objecting to Magistrate Judge's
Opinion and Order, and Motion to Deny or Remove Magistrate Judge's Injunctions [Dkt. No. 114]
wherein Plaintiff argued Judge Jayne's decision to not recuse herself was clearly erroneous and
contrary to law. See Dkt. No. 114 at 9-11. The Court concluded Judge Jayne's decision was not
clearly erroneous or contrary to law.
IT IS THEREFORE ORDERED that Plaintiffs Motion for Objecting to the Court Order
to Refer "Plaintiffs Motion for Change of Magistrate Judge" to Magistrate Judge Herself [Dkt.
No. 85] is DENIED.
IT IS FURTHER ORDERED that the case remains stayed pending resolution of this
Court's ruling on Defendant's Motion for Sanctions [Dkt. No. 112]. See Dkt. No. 130.
DATED this 14th day of December, 2020.

JOHN . HEIL, III
UNI D STATES DISTRICT mDGE

2

APPENDIX G

42a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 20

Appendix "2"

APPENDIX G

43a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 21

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19-CV-554-JFH-JFJ

OPINION AND ORDER

Before the Court are numerous pending discovery motions and/or motions referred to the
undersigned for disposition. (ECF Nos. 18, 40, 42, 51, 54, 60, 80, 86, 89, 94). 1

I.

Defendant's Request for Special Discovery Management Order (ECF No. 80, Part
VIII.F, referred by ECF No. 92)

In the Status Report filed July 24, 2020, Defendant requests that both parties be limited to
four fact witness depositions and that Plaintiff be required to seek leave of Court before serving
any additional written discovery requests on Defendant. ECF No. 80 at 8-9. 2 Upon referral of this
issue, the Court gave Plaintiff the opportunity to respond. ECF No. 103. Plaintiff objects to any
limits on the number of depositions, arguing that all ten proposed deponents have relevant
information and that ten depositions is proportional to the needs of the case. Plaintiff also argues
that Defendant should not be permitted to change its original position, which was that each party
could conduct a range of six to ten fact-witness depositions. See ECF No. 16 at 5.

1

Plaintiffs Motion for Contempt (ECF No. 89) has not been expressly referred but relates to
Defendant's alleged discovery failures. The Court rules on this motion pursuant to General Order
05-09, which refers all discovery matters in civil cases to the assigned magistrate judge.
2

The Court addresses Defendant's request to prohibit or limit further written discovery in the
context of the Motion for Protective Order addressed infra Part VII.

APPENDIX G

44a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 22

Federal Rule of Civil Procedure 26(b)(2)(A) provides that "[b ]y order, the court may alter
the limits in these rules on the number of depositions and interrogatories or on the length of
depositions under Rule 30. By order or local rule, the court may also limit the number ofrequests
under Rule 36." Rule 26(b)(2)(C)(i) and (iii) provide that the Court must limit discovery if it
determines that the proposed discovery is "unreasonably burdensome or duplicative" or "outside
the scope permitted by Rule 26(b)(l)," i.e., not relevant or proportional to the needs of the case.
Proportionality requires consideration of "the importance of the issues at stake in the action, the
amount in controversy, the parties' relative access to relevant information, the parties' resources,
the importance of the discovery in resolving the issues; and whether the burden or expense of the
proposed discovery outweighs its likely benefit." Fed. R. Civ. P. 26(b)(l).
This is an employment discrimination case that will tum on whether Plaintiff was subject
to discriminatory treatment during a reduction in force. The Court is familiar with Plaintiffs
theory of the case, Defendant's defenses, and the damages at issue, based on: (1) the Court's review
of written discovery requests by both parties, (2) Plaintiffs proposed deponents and Plaintiffs
description of their proposed testimony, and (3) the two Joint Status Reports setting forth detailed
factual summaries. After consideration of the likely benefit of ten fact witness depositions,
compared to the burden and expense of permitting that number of depositions, the Court finds
Plaintiffs requested number to be excessive and finds Defendant's proposed limit to be reasonable
and proportional.
Contrary to Plaintiffs arguments, Defendant permissibly changed its position regarding
the number of depositions that should be allowed between the time of filing the original Joint
Status Report on January 8, 2020, and the second Status Report, on July 24, 2020. The district
judge first assigned to the action did not set a schedule or rule on any issues presented in the
original Joint Status Report. When the case was reassigned to a new district judge, he ordered a
2

APPENDIX G

45a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 23

new report for the purpose of setting a schedule. The reassigned district judge was well within his
discretion to order a new status report and refer any discovery management issues presented
therein. In turn, Defendant was entitled to propose new discovery limits and deadlines, based on
developments in the case during this time.
Defendant's Request for Special Discovery Management Order (ECF No. 80, Part VIII.F)
is GRANTED. Exercising its discretion under the above rules, the Court initially limits both
parties to four fact witness depositions. The parties may seek relief from this deposition limit, but
only after conducting the number of authorized depositions and upon a showing of good cause.

II.

Defendant's Motion to Quash and for Protective Order (ECF Nos. 51, 54)
These motions seek a protective order pursuant to Federal Rule of Civil Procedure 26( c),

for the purpose of preventing the ten depositions noticed by Plaintiff for the week of June 23, 2020.
The Court granted Defendant's motion to stay the depositions pending the Court's ruling on this
Motion to Quash and for Protective Order. See ECF No. 58.
The Court has now placed limits on the number of fact-witness depositions pursuant to
Rule 26(b)(2)(A), as requested by Defendant.

Plaintiff shall inform Defendant of his four

requested deponents no later than one week from the date of this Order, and the parties shall confer
regarding these depositions. With the limits imposed, the parties may be able to resolve further
disputes, and the Court denies the current motion without prejudice to refiling. The Court finds
inadequate justification to conduct these depositions at the courthouse, as requested by Defendant,
and will permit any depositions to proceed at the office building selected by Plaintiff.
Defendant's Motion to Quash and for Protective Order (ECF No. 51, 54) is DENIED as
moot, without prejudice to refiling.

3
APPENDIX G

46a

Appellate Case: 21-5002

III.

Document: 010110464783

Date Filed: 01/13/2021

Page: 24

Plaintiff's Motion to Compel and for Sanctions (ECF No. 60)
This motion relates to Plaintiffs third set of requests for production and second set of

Interrogatories, which were served on April 6, 2020. Plaintiff moves to compel Request for
Production ("RFP") 1, 2, 3, & 5 and Interrogato1y ("ROG") 20.
RFP 1, 2, 5 - Denied. The Court granted Plaintiff's motion to compel ESI, including emails
relevant to the case, by identifying two custodians and ordering Defendant to search certain terms.
The Court outlined the scope of proportional ESI discovery, and this is an attempt by Plaintiff to
circumvent that ruling with additional requests. Further, with respect to RFP 2, Defendant already
produced responsive documents and has re-run its search to determine if further responsive
documents exist.
RFP 3, ROG 20 - Denied. Plaintiff now has the entire employment history for Sharp and Duncan.
Defendant has explained that the word "tenured" did not refer to any specific promotion, but
instead referred to these two employees being senior to Plaintiff at the time of the reduction in
force. Defendant need not produce further documents or provide further explanation.
Plaintiff's Motion for Sanctions is premised on Defendant's delay in producing a signed
verification, which has now been produced.
Plaintiff's Motion to Compel and for Sanctions (ECF No. 60) is DENIED.

IV.

Plaintiff's Motion to Compel and for Sanctions (ECF No. 86) and Plaintiff's Motion
for Contempt (ECF No. 89)
This motion relates to Plaintiff's fourth set of requests for production, which were served

on May 11, 2020. Plaintiff moves to compel RFP 5 and 6.
RFP 5 -Denied. This request for communications between Defendant and ICC has already been
denied by the Court, and the Court maintains its prior ruling.

4

APPENDIX G

47a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 25

RFP 6 - Denied. Defendant is not withholding responsive documents and represented that it will
produce any responsive documents in its possession, custody, or control.
Plaintiffs requests for sanctions and contempt are based on Defendant's alleged perjury in
discovery responses, falsifying documents, failing to meet deadlines, and failing to produce
documents ordered by the Court. The Court has reviewed the correspondence between the parties,
including emails from Plaintiff requesting additional documents or discovery, and responding
emails from Defendant. Following is an example of a response :from Defendant:
On RFP's 2, 3, 4, and 7, you cannot agree to naiTow the request for production and
then attempt to have Defendant "follow Plaintiffs requirements" as set forth in the
original RFP's. We have complied with the Court's order and produced all
documents as ordered by the Court. On RFP 21, as I've said repeatedly, we do not
have any additional documents responsive to this request. For the balance of your
email, we have produced all email correspondence that references you, your
performance, your complaint, and your termination in compliance with the Court's
order.
ECF No. 94-1.
Upon review of the correspondence submitted by both parties and Defendant's discovery
responses, the Court finds no grounds for imposing sanctions upon Defendant or holding
Defendant in contempt. The Court finds no cogent or persuasive argument that Defendant has
misled the Court, fabricated evidence, failed to comply with Court orders, or otherwise engaged
in anything resembling sanctionable or bad-faith litigation conduct.
Plaintiffs Motion to Compel and for Sanctions (ECF No. 86) and Plaintiffs Motion for
Contempt (ECF No. 89) are DENIED.

V.

Plaintifrs Motion for Change of Magistrate Judge (ECF No. 40)
Plaintiffs Motion for Change of Magistrate Judge, which expressly references 28 U.S.C.

§ 455(a), was referred to the undersigned. Plaintiff seeks the undersigned's disqualification based
on the following: (1) displaying a "high favoritism to Defendant and antagonism to Plaintiff' in

5
APPENDIX G

48a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 26

the undersigned's ruling on discovery motions on May 19, 2020; and (2) permitting Defendant to
submit an ex parte letter to the Court in support of its assertion of privilege. See ECF No. 4.
The recusal statutes require a judge to disqualify himself if "his impartiality might
reasonably be questioned," or if"he has a personal bias or prejudice concerning a party." 28 U.S.C.
§ 455(a) & (b)(l). A judge must recuse himself when there is the appearance of bias, regardless

of whether there is actual bias. Bryce v. Episcopal Church in the Diocese of Colo., 289 F.3d 648,
659 (10th Cir. 2002). "The test is whether a reasonable person, knowing all the relevant facts,
would harbor doubts about the judge's impartiality." Id.

The "recusal statute should not be

construed so broadly as to become presumptive or to require recusal based on unsubstantiated
suggestions of personal bias or prejudice." See Switzer v. Berry, 198 F.3d 1255, 1258 (10th Cir.
2000). The decision to recuse is committed to the sound discretion of the district court, and the
movant bears a substantial burden to demonstrate the judge is not impartial. United States v.

Burger, 964 F.2d 1065, 1070 (10th Cir.1992).
The undersigned has no relationship with Defendant, its lawyers, or its witnesses.
Plaintiff's assertions of bias are based on the undersigned's substantive discovery rulings. The
undersigned will briefly address these frivolous arguments. First, a review of the May 19, 2020,
discovery Order reveals no bias in favor of Defendant or against Plaintiff. The undersigned granted
Plaintiff's motion to compel in part and ordered Defendant to produce a significant amount ofESI
over its objection. The undersigned found that language used by Plaintiff in a letter to a third party
was threatening and inappropriate, caused the Court concern about Plaintiff's abuse of the
discovery process, and warranted a limited protective order regarding third-party subpoenas.
However, these rulings were based on the facts and law presented, rather than based on bias.
Second, permitting ex parte submission of allegedly privileged documents does not show
favoritism. In the motion to compel, Plaintiff successfully argued that Defendant's assertion of
6

APPENDIX G

49a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 27

work-product privilege was improper, based on information in Defendant's privilege log. The
Court agreed with Plaintiff and ordered Defendant to produce the documents to Plaintiff, or submit
further information ex parte in support of its privilege assertion. Defendant elected to produce the
documents to Plaintiff rather than further pursue its privilege assertion, and Plaintiff prevailed on
this issue. The undersigned's impartiality cannot reasonably be questioned based on discovery
rulings or other facts.
Plaintiffs Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.

VI.

Plaintiff's Motions for Chinese (Mandarin) Translator (ECF Nos. 18, 42)
Upon filing his Complaint, Plaintiff requested a Chinese translator. The district judge

originally assigned to the case stated in a minute order: "There are no hearings set at this time, and
the plaintiffs Complaint is coherent and is filed in English. As the litigation progresses, if a
translator becomes necessary for purposes of accommodating plaintiffs accent (e.g. during
deposition, court hearings) or for any other reason, the Court will consider a renewed motion for
appointment of a translator." ECF No. 9. In his first renewed motion, Plaintiff "requests that the
Court find a Chinese (Mandarin) translator for the case hearing and trial because of plaintiffs
some English accent." ECF No. 18. In his second motion, requests a translator at a hearing
requested by Plaintiff in ECF No. 41. These two motions were referred to the undersigned.
The Court has not scheduled or conducted any pretrial hearings.

Plaintiffs briefs

demonstrate his strong command of the English language, and Plaintiff has fully and adequately
represented himself on all issues. Plaintiff has suffered no prejudice based on the Court's failure
to appoint a translator. To the extent Plaintiff requests a translator for purpose of the specific
hearing requested in ECF No. 41, the motion is denied as moot, because the district judge did not
schedule a hearing on the motion.

7

APPENDIX G

50a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 28

To the extent Plaintiff is requesting that the Court appoint a translator for trial, depositions,
or hearings that may be scheduled in the future, the Court denies the motion. Pro se parties in civil
cases are generally not entitled to a court-provided translator. See Desulma v. Goolsby, No.
98CIV.2078(RMB)(RLE), 1999 WL 147695, at *l (S.D.N.Y. Mar. 16, 1999) ("In general, a pro
se civil plaintiff is not entitled to an interpreter or translator."); Vargas-Rodriguez v. Ortiz, No. CV
18-2628(RMB), 2019 WL 2366968, at *6 (D.N.J. June 5, 2019) (collecting cases). Plaintiff elected
to file the lawsuit, Plaintiff is not indigent, and Plaintiff shall be required to locate and provide his
own translator for future court proceedings at which he desires the presence of a Chinese
translator. 3

VII.

Defendant's Motion for Protective Order (ECF No. 94)
In this motion for protective order, which was filed August 11, 2020, Defendant seeks a

protective order that ( 1) requires Plaintiff to seek leave of Court before filings any further pleadings
or motions; (2) requires Plaintiff to seek leave of court before serving Defendant with any
additional discovery requests or notices of depositions; and (3) excuses Defendant's obligation to
respond to ECF Nos. 85, 86, and 89. ECF No. 94 at 6-7. On August 12, 2020, by minute order,
the Court excused Defendant's response obligations and prohibited Plaintiff from filing further
motions on a temporary basis, until the Court had the opportunity to rule on Defendant's motion
for protective order. ECF No. 95. 4 The Court then ordered Plaintiff to respond to the motion for
protective order, and Plaintiff filed a substantive response. ECF No. 104. Plaintiff argues that

3

This ruling may be revisited at the time of any scheduled hearing or trial, or upon assessing the
difficulty of conducting proceedings if Plaintiff fails to provide his own translator. This ruling
will not be revisited for purposes of depositions.
This minute order was not intended as a permanent filing restriction or other sanction. Instead,
it was intended to pause Plaintiffs filings while the Court resolved the motion for protective order
and numerous other motions. This effort was largely unsuccessful, as Plaintiff filed six different
"objections" following the Court's minute order. ECF Nos. 100-105.
4

8
APPENDIX G

51a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 29

Defendant has been "abusing protective orders" and that Defendant has blatantly misled the Court
on numerous occasions. Id. at 1.
The Court may issue a protective order to protect a party from annoyance, embarrassment,
oppression, or undue burden or expense in responding to discovery. Fed. R. Civ. P. 26(c)(l);
Boughton v. Cotter Corp., 65 F.3d 823, 829-30 (10th Cir. 1995) ("Rule 26(c) is broader in scope

than the attorney work product rule, attorney-client privilege and other evidentia1y privileges
because it is designed to prevent discove1y from causing annoyance, embarrassment, oppression,
undue burden or expense not just to protect confidential communications.").
Defendant has adequately shown the need for protection from undue burden in relation to
Plaintiffs discovery practices. To be clear, Plaintiff has filed non-frivolous discovery motions,
including his original motion to compel discovery responses. However, following the Court's
ruling on his first motion to compel, Plaintiff filed several frivolous motions to compel burdensome
and repetitive discovery requests that directly contradict this Court's orders. In total, Plaintiff has
now issued eleven different sets of discovery, including five sets of requests for production.
Plaintiff has also filed frivolous motions for sanctions and contempt, accusing Defendant of
deceitful and sanctionable discovery conduct without justification. Plaintiff has also objected to
every unfavorable ruling issued by the Court, requiring Defendant to respond to frivolous
objections. This has posed an undue burden on Defendant and the Court's docket.
Based on Plaintiffs conduct to date, the Court finds good cause for issuance of a limited
protective order pursuant to Rule 26(c)(l) to manage discovery, avoid unnecessary expense, and
avoid burdensome discovery-related motion practice. The Court issues a protective order that
prohibits Plaintiff from: (1) issuing any further written discovery requests to Defendant, either in
the form of interrogatories or requests for production, absent leave of Court; or (2) filing further
motions for contempt or sanctions in relation to any of Defendant's written discovery responses.
9

APPENDIX G

52a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 30

Defendant is excused from filing responses to ECF Nos. 85, 86, and 89, which the Court finds to
be frivolous discovery-related motions that do not require a response.
The Court lifts the prohibition on Plaintiff's ability to file motions. See ECF No. 95. At
this time, the Court declines to impose any pe1manent filing restrictions as a sanction under Federal
Rule of Civil Procedure 11 or to invoke the Court's inherent powers to control abusive litigation
conduct. See generally Hutchinson v. Hahn, No. 05-CV-453-TCK PJC, 2007 WL 2572224, at *5
(N.D. Okla. Sept. 4, 2007) (explaining Rule 11 sanctions, court's inherent power to impose
sanctions, and notice requirements prior to imposing sanctions). The Court declines to do so for
two reasons. First, Defendant's motion was styled as one for protective order and did not expressly
reference "sanctions" in the title, causing a potential notice problem. Second, the motion was
automatically referred to the undersigned because it was styled as a motion for protective order.
Any motion for Rule 11 sanctions, or sanctions under the Court's inherent power, are within the
province of the district judge, absent an express referral. If Defendant seeks to impose sanctions
against Plaintiff under Rule 11 or otherwise, it shall file a properly styled motion that clearly
triggers procedural rules governing such motions.

VIII. Conclusion
It is hereby ORDERED that:
1. Defendant's request for special discovery management limitations (ECF No. 80, Part
VIII.F, referred by ECF No. 92) is GRANTED. The Court imposes a discovery
management limit of four (4) fact witness depositions for both parties.
2. Defendant's Motion to Quash and for Protective Order (ECF Nos. 51, 54) are
DENIED without prejudice to refiling.
3. Plaintiff's Motion to Compel and for Sanctions (ECF No. 60) is DENIED.
4. Plaintiff's Motion to Compel and for Sanctions (ECF No. 86) and Plaintiff's Motion
for Contempt (ECF No. 89) are DENIED.
5. Plaintiff's Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.
10

APPENDIX G

53a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 31

6. Plaintiffs Motions for Chinese (Mandarin) Translator (ECF Nos. 18, 42) are DENIED.
7. Defendant's Motion for Protective Order (ECF No. 94) is GRANTED in part, and the
Court enters the following protective order. Plaintiff is prohibited from:
(1) issuing any further written discovery requests to Defendant, absent leave of
Court; and
(2) filing any further motions for contempt or sanctions in relation to any of
Defendant's current discovery responses. 5
8.

The Court declines to impose the sanction of filing restrictions at this time, and the
temporary restriction imposed by ECF No. 94 is lifted.

SO ORDERED this 21st day of September, 2020.

~~YJ;AG~

UNITED STATES DISTRICT COURT

5

The Court's prior Protective Order, which requires Plaintiff to seek leave of court to issue thirdparty subpoenas and avoid threatening or harassing behavior to third parties, also remains in place.
See ECF No. 37 at 10.
11
APPENDIX G

54a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 32

Appendix "3"

APPENDIX G

55a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 1 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 33

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19-CV-554-JED-JFJ

ORDER

Before the Court are: (1) Plaintiffs motions to compel written discovery responses from
Defendant (ECF Nos. 22, 24, 30, 31); (2) Plaintiffs motion to compel responses to a third-party
subpoena issued to Alex Alexandrov, of ICC Northwest ("ICC"), which is within Plaintiffs
response to Defendant's motion to quash (ECF No. 25 at 9); 1 and (3) Defendant's motion to quash
the subpoena to ICC and for sanctions or a protective order (ECF No. 19, 20).
I.

Background

Plaintiff, appearing prose, sued his former employer, Defendant Linde Engineering North
America, under Title VII of the Civil Rights Act for age discrimination, race discrimination, and
retaliation. Plaintiff worked for Defendant for less than a year from October of2018 to August of
2019. Plaintiff, who is Asian American, alleges he was "treated differently than other similarly
situated White and younger employees." ECF No. 1 at 2. He further asserts a retaliation claim,
alleging that on "5/10/19 I communicated with vice president, Mr. David Close and highlighted

1 In

the interest of efficiency and preserving resources of the parties and ICC, the Court excuses
Plaintiffs failure to file a separate motion and will address Plaintiffs motion to compel the ICC
documents on the merits. The Court denies the motion and finds no need for ICC to file a response
brief.

APPENDIX G

56a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 2 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 34

the unfair treatment. However, in less than three months of my complaints I was selected for a
company wide reduction in force." Id. Plaintiff further explained the factual bases for his claims
in the Joint Status Report. Plaintiff states that: (1) he was excluded from trainings and project
meetings while younger engineers named Kenny Sharp and Dustin Duncan were not; (2) he was
retaliated against by his supervisor, Jerry Gump, after complaining about unfair treatment by
Gump, and after reporting "big mistakes" by Sharp in relation to specific projects; and (3) he was
selected for a reduction in force based on his race, age, and in retaliation for raising complaints.
ECF No. 16 at 1-3.
Plaintiff has issued at least two sets of discovery requests, including requests for
production, interrogatories, and requests for admission. See ECF Nos. 22-1 (47 requests for
production); ECF No. 30-1 (10 additional requests for production); 30-2 (17 interrogatories); 303 (13 requests for admission). Defendant has produced documents and a privilege log. Defendant
lodged numerous objections to Plaintiffs discovery requests, and Plaintiff filed the two pending
motions to compel complete responses from Defendant.
Plaintiff also issued a third-party subpoena to Mr. Alex Alexandrov, of ICC Northwest
("ICC"). By email from ICC's in-house counsel to Plaintiff, ICC objected to the subpoena. ECF
No. 19-10.

Defendant filed the pending motion to quash based on procedural deficiencies.

Defendant also seeks sanctions or a protective order, due to threatening language by Plaintiff in an
email sent to ICC's in-house counsel. In his response to Defendant's motion to quash, Plaintiff
moved to compel responses from ICC.

II.

Plaintiff's Motions to Compel Discovery Responses from Defendant
As an initial matter, the Court declines to deny the motion based on any failure to meet and

confer as to specific requests and reaches the merits of the motions.

2

APPENDIX G

57a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 3 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 35

A.

First Motion to Compel (ECF No. 22)

RFP 2, 3, 4, 7, 36: Granted, as limited by Plaintiff. Plaintiff limited requests 2, 3, 4, and
7 to "cryogenic piping class specifications C40 and C60 on March 2 & 3, 2020." ECF No. 22 at
4. Plaintiff limited RFP 36 to production of two "shop skid" photographs for an XTO project,
which were sent to Plaintiff by email from Eric Cantos. Plaintiff argues these piping specifications
and photographs are relevant to showing that his work performance was excellent, while younger
engineers made mistakes on projects. Defendant contends these documents are irrelevant and that
they are confidential information of Defendant and its customers.
Plaintiffs general work performance in comparison to younger employees that were not
laid off may be relevant to the issue of pretext. See Pippin v. Burlington Res. Oil And Gas Co.,
440 F .3d 1186, 1193 (10th Cir. 2006) (explaining methods of demonstrating pretext in RIF case,
where plaintiff argued that RIF was manipulated in light of plaintiffs "good performance"). These
requests are specific, not overbroad, and Plaintiff has already viewed these documents. Defendant
shall only be compelled to produce the documents subject to a protective order, in order to protect
any confidential information and prevent use of the information for purposes other than the
litigation.

RFP 6: Granted, no objection.
RFP 9-14: Denied. These broad requests for Plaintiffs' email communications with other
individuals and/or groups of individuals are aimed at discovering performance-related information
that will permit comparison between Plaintiff and younger employees.
Although performance information is relevant, these requests are vague and an overly
broad fishing expedition that will result in production of significant amounts of irrelevant business
communications. It is unclear whether Plaintiff is requesting Defendant search for only those

3
APPENDIX G

58a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 4 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 36

emails where all listed individuals were included as recipients, or all emails between Plaintiff and
each listed individual. Under either interpretation, the majority of emails that would be searched
for, reviewed, and produced are unlikely to contain any specific or clear performance-related
information, such as a performance review. Instead, Plaintiff appears to be seeking all emails
about a significant number of particular projects, so that he can show younger engineers made
technical mistakes. While there may be some relevant performance-related information within
these requested communications, the Court finds the requests vague, facially overbroad, and not
proportional to the needs of the case, considering all Rule 26(b)(l) factors.
The Court cannot discern or craft reasonable limits to place on RFP 9-14 that would render
the requests reasonable and proportional. Further, Plaintiff was terminated during a RIF and not
for performance-related issues. Although performance information may be relevant to the issue
of pretext, it is of less importance to the needs of the case than discussion of Plaintiff following
his complaint, as requested in RFP 15-19.
RFP 15-19: Granted in part and denied in part. These broad requests are for email
communications sent by numerous employees that mention Plaintiff. According to Plaintiff, these
requests are aimed at: (1) determining Defendant's "internal response" after Plaintiff's complaint
in May 2019, and (2) whether Gump "asked other employees to isolate Plaintiff from the emails."
ECF No. 22 at 6. Discussion of Plaintiff after his complaints about Gump are directly relevant to
retaliation and other issues in the case, and it is not overly speculative that relevant information
regarding Plaintiff would be contained in internal communications following such complaint.
As a reasonable limit on Requests 15-19, which are vague and would require extensive ESI
searches, the Court orders Plaintiff to provide the names of two custodians, or individuals within
the company, whose email accounts are most likely to contain relevant information. Defendant

4

APPENDIX G

59a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 5 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 37

shall search these custodians' email accounts for the identifying terms listed in the current requests
during the limited time period of May 6, 2019 (the date of the complaint) and August 17, 2019
(the date of termination). This is a proportional ESI search for the information requested in RFP
15-19, considering all Rule 26(b)(l) factors. The documents may be produced pursuant to a
protective order.
RFP 20, 23, 24: Granted in part and denied in part. As to these requests, Plaintiff contends

Defendant has improperly withheld certain documents as privileged, has lied about not possessing
responsive documents, has doctored certain documents, and has otherwise engaged in bad-faith
discovery conduct. Plaintiff requests various forms of relief, including physical inspection and
production in different formats.
The Court finds Defendant has not engaged in any intentional misrepresentations to
Plaintiff or other bad-faith discovery conduct. Defendant produced documents, cooperated with
Plaintiff, and made efforts to understand his positions. Therefore, the Court denies Plaintiff's
requests for physical inspection of the documents and/or for production of documents in any
different format. The Court addresses Plaintiff's challenges to privilege assertions below.
RFP 21: Granted in part. Defendant is ordered to provide additional documents, if any

exist, showing money contributed or any other financial benefits provided to Plaintiff in relation
to insurance.
RFP 26: Granted. As explained and limited in Plaintiff's motion, this request seeks emails

and meeting records discussing a specific project in which Sharp, a younger, retained employee,
allegedly made mistakes regarding long pattern ball valves and short pattern ball valve issues. This
was discussed in Plaintiff's internal complaint in May of 2019. The Court finds the information
relevant to pretext, not overly broad, and proportional to the needs of the case, as limited by the

5

APPENDIX G

60a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 6 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 38

Court. Defendant shall conduct a reasonable search for emails, memos, or meeting records during
January and February of 2019 discussing Sharp, the Crestwood project, and ball valve issues.
These documents may be produced pursuant to a protective order.
RFP 27: Denied. This request is vague and not a proper request for production.
RFP 28: Denied. Based on Plaintiffs behavior in relation to ICC, which is discussed

below, the Court has concerns about providing Plaintiff the last known addresses and phone
numbers of eight of Defendant's former employees. The Court shares Defendant's concerns that
Plaintiff will harass the individuals during the discovery process. Further, Plaintiff failed to
explain what relevant information these individuals may have. Under these circumstances, the
Court finds Defendant's interest in protecting third parties' personal information and privacy
outweighs Plaintiffs need to obtain the personal contact information.
RFP 32: Granted in part. Defendant shall provide job descriptions, if any exist, for the

positions held by Kenny Sharp and Dustin Duncan during the time of Plaintiffs employment, if
not previously provided. With these limitations, the Court overrules Defendant's vagueness and
other objections.
RFP 33, 34: Denied as to all salary information. Plaintiff does not allege he was treated

differently than younger employees in terms of salary. Granted as to documents showing any
promotions or demotions of these employees. These documents may be produced pursuant to a
protective order. The date range is limited to Plaintiffs span of employment.
RFP 35: Moot. Defendant has represented it has no responsive documents.
RFP 37-38: Granted. Defendant shall produce all non-privileged responsive documents,

to the extent any have been withheld.

6

APPENDIX G

61a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 7 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 39

RFP 42: Granted in part. Defendant shall provide responsive organizational charts that

were current and in existence during the time of Plaintiffs employment. Defendant may redact
other departments. With these limitations, the Court ove1rules Defendant's vagueness and other
objections.
PRIV 0004, 0005, 0006: Plaintiff challenges whether these documents are subject to the

work product privilege. The privilege log reflects these are internal, pre-suit communications
between Defendant's employees regarding Plaintiffs internal complaint three months prior to the
RIF. Defendant's description is not sufficient to establish a "work product" privilege. Defendant
may either produce the documents, or submit the documents in camera to the Court for review,
along with an explanation via ex parte letter to the Court as to why these notes and memorandum
qualify for a work product privilege.
PRIV 290-291: Plaintiff challenges certain redactions of names from this email under the

"Pipe Engineer" heading. According to the privilege log, names are redacted to protect "personal
privacy information." With respect to the redactions under the heading "Pipe Engineer," any
interest in protecting these individuals' names is outweighed by the importance of the information
to the case. Defendant shall produce the document without that redaction. Other redactions of
names of individuals in other departments may remain.

B.

Second Motion to Compel (ECF No. 30)

RFP 6, 7: Denied. Plaintiff seeks his former counsel's correspondence with Defendant

for the purpose of explaining to the Court how former counsel "cheated" in relation to settlement
negotiations. See ECF No. 30 at 3. This is not relevant to claims or defenses asserted in this case.

RFP 9: Denied. Plaintiff has failed to show the relevance of Defendant's communications
with "job recruiters" following his termination. This is further explained in Part III below.

7
APPENDIX G

62a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 8 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 40

ROG 13: Denied. Plaintiffs request for all discrimination claims against Defendant for
the past eight years is facially overbroad and seeks irrelevant information.

Defendant has

adequately responded to this interrogatory by responding that there have been no discrimination
claims against Gump in the past three years.
ROG 14: Denied. Defendant adequately responded by referring to business records
previously produced regarding the May 2019 investigation, as permitted by Rule 33(d).
ROG 15: Denied. This request seeks "facts to support a termination of the Plaintiff after
he was terminated."

This request is vague, but it appears to be aimed at attorney mental

impressions and other privileged information. Defendant will be required to disclose its witness
and exhibit lists in due course.
RFA 7, 8, 10, 12: Denied. These requests for admission are vague, confusing, and not
capable of being admitted or denied.
C.

Motions for Sanctions (ECF Nos. 24, 31)

Defendant has complied timely and in good faith to all discovery requests. Further,
Defendant lodged good-faith objections to the discovery requests, although some were overruled
by the Court. The Court denies Plaintiffs motions for sanctions.
III.

Plaintiff's Motion to Compel Response to ICC Subpoena (within ECF No. 25 at 9)
According to Plaintiff, ICC employed him prior to his employment with Defendant. ICC

also offered Plaintiff a part-time job in January 2020, after his employment with Defendant ended.
ECF No. 25 at 2. The subpoena to ICC requests: (1) Plaintiffs employment documents and
information from March 1, 2018 to present; (2) ICC's communications with "job recruiters" about
Plaintiff since September 1, 2019; and (3) ICC's employees' communications with Plaintiff since

8
APPENDIX G

63a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 9 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 41

September 1, 2019. ECF No. 19-2. Plaintiff offered the following explanation as to the relevance
of these requests:
At the end of January, 2020, ICC wanted Plaintiff to sign a very "strange" parttime job contract. ICC specified about 20-40 hours per week for the part-time job
on that contract. However, Plaintiff found that NOW there are not any jobs
provided for Plaintiff to do. According to ICC's reply, the part-time job will start
at the end of2020 and next year 2021, and also the part-time job is based on future
"if' and "assumption." So, Plaintiff wondered why ICC needs Plaintiff NOW to
sign a future part-time job contract, why to specify 20-40 hours per week for the
job on that contract, but, no 20-40 hours per week jobs provided for Plaintiff to do
now; also, the jobs are based on future "if' and "assumption," i.e. the job is not
guaranteed. So, Plaintiff asked ICC Human Resources Director Ms. Jennifer Bean
a few times to confirm whether there were any third parties to inquire about
Plaintiffs employment information, or request ICC to help do something on
Plaintiff. However, ICC never answered Plaintiffs requests about a third party,
attaches [sic] as EXHIBIT "B." After ICC refuses to reply to Plaintiffs requests
and questions, Plaintiff filed a third party Subpoena to ICC by certified mail [see
EXHIBIT "C"], and served on Defendant by regular mail, respectively on February
18, 2020.
ECF No. 25 at 2-3.
As an initial matter, the Court declines to quash the subpoena based on the two procedural
deficiencies raised by Defendant. With respect to Plaintiffs failure to provide notice prior to
serving ICC with the subpoena as required by Rule 45(a)(4), the Court finds no prejudice flowing
to Defendant from this technical violation and declines to quash the subpoena on this basis. See

Fujikura Ltd. v. Finisar Corp., No. 15MC80110HRLJSC, 2015 WL 5782351, at *4 (N.D. Cal.
Oct. 5, 2015) (collecting cases declining to quash subpoena where party does not suffer prejudice
from Rule 45 notice requirement). With respect to Plaintiffs failure to cause service to be effected
by someone who is "not a party," as required by Rule 45(b)(l), the Court declines to quash the
subpoena on this basis. The clerk of court signed the subpoena, and Plaintiff completed the
subpoena and sent it via certified mail. Ordinarily, his attorney would have sent the subpoena, but
Plaintiff appears pro so. Based on Plaintiffs lack of attorney to send the subpoena on his behalf,

9

APPENDIX G

64a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 10 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 42

lack of prejudice to any party, and ICC's receipt of actual notice, the Court declines to quash the
subpoena based on this technical violation. Were the court to quash the subpoena on either
procedural basis, Plaintiff would likely re-serve the subpoena on ICC correcting these deficiencies,
thereby resulting in further costs and delay.

Plaintiffs motion to compel and substantive

arguments are before the Court, as are ICC's written objections. The Court finds no need for
further briefing from ICC and elects to reach the merits of the motion to compel in the interest of
efficiency.
Plaintiff has failed to demonstrate the relevance of any documents requested from ICC.
Documents related to his former employment with ICC clearly have no relevance to the issues
presented in this lawsuit. The Court also cannot discern any relevance of ICC's communications
with "job recruiters" regarding Plaintiff, or ICC's recent communications with Plaintiff. It appears
Plaintiff is concerned that Defendant or other third parties have asked ICC to falsify records or
somehow interfere with this lawsuit. Plaintiff states that he wishes to "ascertain [whether] any
third parties ... contact Plaintiffs former employer to inquire about Plaintiffs employment
information, or to request ICC to do something on Plaintiff against Federal Law or State Law."

See ECF No. 25 at 10. This is an overly speculative fishing expedition for information that may
or may not exist and that has no discernible relevance to the current litigation. Accordingly,
Plaintiffs motion to compel responses from ICC is denied, and ICC need not respond to the
subpoena in any way.

IV.

Defendant's Motion to Quash and for Sanctions/Protective Order (ECF Nos. 19, 20)
Defendant's motion to quash is denied for the reasons explained above, as the Court elects

to excuse procedural deficiencies and rule on Plaintiffs motion to compel on the merits.
Defendant also moved for sanctions or a protective order, based on threatening language in an

10
APPENDIX G

65a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 11 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 43

email from Plaintiff to ICC's in-house counsel.

Although Plaintiff contends he was only

threatening legal action, certain language could be viewed as threats to the safety of ICC and its
employees. See ECF No. 19-10 ("For ICC, the best way is immediately to issue all the documents
to me as I required. Perhaps, ICC and some ICC employees will be safe as long as ICC would like
to get an agreement with me."). The Court will not countenance or tolerate any threatening
behavior, and Plaintiff may not use the discovery power of this Court to intimidate, harass, or
threaten third parties. If the Court becomes aware of any similar language or behavior by Plaintiff,
Plaintiff is expressly warned that dismissal of his lawsuit may be the selected sanction. At this
time, the Court declines to sanction Plaintiff but does issue a specific protective order as set forth
below.

V.

Conclusion
Plaintiffs motions to compel discovery from Defendant and for sanctions (ECF No. 22,

24, 30, 31) are granted in part and denied in part as set forth above.
Plaintiffs motion to compel responses to the ICC subpoena (ECF No. 25 at 9-10) is denied.
Defendant's motion to quash (ECF No. 19) is denied.
Defendant's motion for sanctions or protective order (ECF No. 20) is granted in part and
denied in part. Based on language in the email from Plaintiff to ICC's counsel, the Court orders
Plaintiff to: (1) disclose to Defendant any other third-party subpoenas that have been issued, if
any; (2) seek leave of Court prior to issuing any further third-party subpoena; and (3) avoid any
threatening or harassing behavior to other third parties in conducting discovery or otherwise
prosecuting this case. Violations of this Order may result in sanctions, including dismissal.

11
APPENDIX G

66a

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 12 of 12
Appellate Case: 21-5002 Document: 010110464783 Date Filed: 01/13/2021 Page: 44

Plaintiff shall confer with Defendant regarding RFP 15-19 no later than five days from the
date of this Order. Defendant shall produce supplemental documents no later than 30 days from
the date of this Order.
Defendant shall submit its ex parte letter, with attached documents, no later than 10 days
from the date of this Order, if desired.
SO ORDERED this 19th day of May, 2020.

~YJiG~

UNITED STATES DISTRICT COURT

12
APPENDIX G

67a

Appellate Case: 21-5002

Document: 010110464783

Date Filed: 01/13/2021

Page: 45

Appendix "4"

APPENDIX G

68a

Case
4:19-cv-00554-JFH-JFJ
Document010110464783
70 Filed in USDCDate
ND/OK
on01/13/2021
07/09/2020 Page:
Page 46
1 of 4
Appellate
Case: 21-5002 Document:
Filed:

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

Case No. 19-CV-554-JED-JFJ

ORDER
Before the Court are several pending motions filed by pro se Plaintiff Bo Zou and
Defendant Linde Engineering North America, Inc. The motions primarily relate to a discovery
order entered by the Court on May 19, 2020 ("Discovery Order"). ECF No. 37.

I.

Plaintiff's Motions
A.

Motion for Sanctions Related to Plaintiff's Email to ICC (ECF No. 34)
(referred by ECF No. 43)

Plaintiff requests sanctions against Defendant for obtaining and filing an email Plaintiff
sent to third party ICC, because the email is protected by copyright law. This email was discussed
by the Court in the Discovery Order and relates to discovery in this lawsuit. See ECF No. 37 at
10-11. The Court finds no legal violations or otherwise sanctionable conduct by Defendant in
obtaining the email from ICC or filing it for the Court's consideration. The motion for sanctions
is denied.

B.

Motion to Reconsider (ECF No. 38) (referred by ECF No. 43)

The Court granted Plaintiff's motion to compel in several respects and ordered Defendant
to supplement its document production.

Plaintiff now moves the Court to reconsider the

unfavorable aspects of the Court's ruling. Plaintiff repeats arguments raised in the motion to

APPENDIX G

69a

Case
4:19-cv-00554-JFH-JFJ
Document
70 Filed in USDCDate
ND/OK
on01/13/2021
07/09/2020 Page:
Page 47
2 of 4
Appellate
Case: 21-5002 Document:
010110464783
Filed:

compel and continues to allege Defendant has engaged in discovery misconduct and misled the
Court. ECF No. 38. Plaintiff has not shown that the Court misapprehended the facts, Plaintiff's
legal position, or the law governing the parties' discovery disputes. Therefore, the Court denies
the motion to reconsider. See Servant of Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)
(explaining that a motion for reconsideration is appropriate where the court has misapprehended
the facts, a party's position, or the controlling law). 1

C.

Motions for Hearing and Translator (ECF No. 45) (referred by ECF No. 46)

Plaintiff requests an in-person, five-hour hearing on his motion to reconsider. 2 In its
discretion, the Court declines to conduct a hearing on the motion to reconsider or permit any further
presentation of evidence related to the Court's Discovery Order. Due to the Court's denial of a
hearing, Plaintiff's request for a translator at the hearing is denied as moot.

D.

Motion to Strike and for Sanctions (ECF No. 59) (referred by ECF No. 61)

Plaintiff moves to strike Defendant's response to the motion to reconsider (ECF No. 49),
because Defendant failed to serve the response on Plaintiff. Plaintiff admits that he received notice
of the response no later than June 19, 2020, four days after it was filed. Plaintiff filed a timely
reply that the Court has considered. ECF No. 65. Defendant's response brief sets forth specific
facts and arguments relied on by the Court in denying Plaintiff's motion to reconsider, and the

1 To

the extent Plaintiff seeks reconsideration based on the Court's failure to await his reply brief
in support of his motion to compel, the Court has now fully considered such brief. See ECF No.
38-1. Upon consideration of the reply, the Court reaches the same result and finds no grounds for
reconsideration.
Plaintiff also requested a hearing on his motion to reassign the undersigned judicial officer. ECF
No. 41. That motion to reassign, and the corresponding request for hearing, are pending before
the district judge.
2

2

APPENDIX G

70a

Case
4:19-cv-00554-JFH-JFJ
Document
70 Filed in USDCDate
ND/OK
on01/13/2021
07/09/2020 Page:
Page 48
3 of 4
Appellate
Case: 21-5002 Document:
010110464783
Filed:

Court finds no grounds for striking the document or sanctioning Defendant for any failure to serve
Plaintiff with this document. The motion to strike and for sanctions is denied. 3

II.

Defendant's Motions

A.

Motion for Entry of Protective Order (ECF No. 44) (automatic referral by
Northern District G.O. 05-09)

The Court expressly contemplated entry of a blanket protective order permitting Defendant
to designate certain documents as confidential. See, e.g., ECF No. 37 at 6 (compelling production
but stating documents may be produced pursuant to protective order). The Court finds that a
blanket protective order will facilitate discovery and the flow of information at this stage of the
proceedings. To the extent Plaintiff desires to challenge whether a confidentiality designation is
proper, Defendant's proposed protective order permits such a challenge. See ECF No. 44-1 at <J[ 7.
Accordingly, the motion for entry of a protective order is granted, and the Court will enter a
protective order in the form attached as Exhibit 1 to Defendant's motion.

B.

Motion for Extension of Time to Comply with Order (ECF No. 50) (referred
by ECF No. 55)

Defendant requests an extension of the supplemental production deadline set by the Court
in its Discovery Order. Defendant requests additional time to complete ESI searches and requests
that the Court postpone the deadline until entry of a protective order. There is no scheduling order
in place, and Plaintiff has not shown any prejudice resulting from the extension. Defendant has
shown good cause for the requested extension. Defendant shall have five days from the date of
entry of the protective order to complete its production.

3 The

Court finds no need to permit a response or reply brief before denying this motion.
3

APPENDIX G

71a

Case
4:19-cv-00554-JFH-JFJ
Document
70 Filed in USDC
ND/OK
07/09/2020 Page:
Page49
4 of 4
Appellate
Case: 21-5002 Document:
010110464783
Date
Filed:on01/13/2021

m.

Conclusion
Plaintiffs motions addressed in this Order (ECF Nos. 34, 38, 45, 59) are DENIED.

Defendant's motion for protective order (ECF No. 44) is GRANTED, and the Court enters
Defendant's proposed protective order this date. Defendant's motion for extension of time (ECF
No. 50) is GRANTED, and Defendant shall have five days from the date of entry of the protective
order to complete its production.
The remaining motions pending before the undersigned (ECF Nos. 51, 54, 60) are not ripe
for review and will be ruled on by separate Order. In the Joint Status Report to be filed July 24,

2020, the parties shall state whether the remaining discovery disputes pending before the
undersigned have been narrowed or resolved in any manner.

SO ORDERED this 9th day of July, 2020.

4
APPENDIX G

72a

Appellate Case: 21-5002

'

Document: 010110464783

Date Filed: 01/13/2021

Page: 50

·- -'

·7J.

';

-=--·

~

--\•

/

)

l

.

To reuse,.cover- or ma:rk through any preyious shipping information.
'

I

i

,.. .

.:..l_

\

-1

·I

·/

.,

-

-

80 ZOU

\ll

'

.
1

(71~ ) '835-8655 1 ..
·

d~1~•GIN' r:D•TULA
'

•

_,

--,

-~-

----

1
,. SHiP Dl'lrE• {iJAN21 ,· . .
1

,,

\

.' Align
top of FedEx Express®
shipping
label here.
.,."
., •.
-- 1

,•,,,/

• I

---

.._,_

.

'

'

I

,

ACTWGT: 0. 75 LS
CAD= 6992767/SSF02121

;:i.

TULSA, OK .74105
UNITED STATES US

.

1

""
.....

4920 S YORKTOWN AVE

\

-

~
"'

~

BILL CREDIT CARD

}1

CtERK PF THE COURT ·
/ BYRON WHITE COURT HOUSE
, 1823 STOUT Sl

rn ..THE

' .

I.

t-

a

:::! '
~

DENVER CO 80257

IO00) 000- 0000
IHU:

I,__ PO:

R,J24
.'-----------

. .REF:

.

II Illll llll lllll llllllll II II IIIIIII Ill llll lllll lHII
· ! 1111 fil lW~ liu1~hl. ll.ll/Ji.11W~ Ml
· l1

1

A
-~3/

F;z

-

__________ ____ _

t6:so

4980 .

..

\~:-~~ ~·

DEPT:

-·

FedEx
Express·

·I

·.

-[E]E··~"
::~
•O

"1:1

-✓

'

1:1

~

_.:.,-

..,.

:-7824 9503·49·80
I

•

tST DENA
. " .-·

I\ ",
APPENDIX G

'\

. DSR:

I

1
I

WEP - 13 JAN 4:30P ~. ** 2DAY ** ,
80257
. co-us

~

DEN .

·,

73a

_ _ _ .________ __________________ ___ lllffl.llllllll.ltlltll.llJllUlllll_llllllllllll_l_lf.lUll.lll.• J.llll

1·

Appellate Case: 21-5002

Document: 010110464787

Date Filed: 01/13/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

January 13, 2021

Jane K. Castro
Chief Deputy Clerk

Bo Zou
4920 South Yorktown Avenue, Unit 122
Tulsa, OK 74105
RE:

21-5002, In re: Zou
Dist/Ag docket: 4:19-CV-00554-JFH-JFJ

Dear Mr. Zou:
Your petition for writ of prohibition has been docketed but will not be submitted to the
court until proof of service is provided. Within 30 days of the date of this letter, you must
provide proof of service of the petition on the district court judge (See Fed. R. App. P.
21(a)(1)), or this proceeding may be dismissed without further notice. See 10th Cir. R.
3.3(B). The enclosed form may be used.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

cc:

Jessica L. Craft
Jonathan Gary Rector

CMW/djd

APPENDIX G

74a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 1 of 25

APPENDIX H

75a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 2 of 25

APPENDIX H

76a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 3 of 25

APPENDIX H

77a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 4 of 25

APPENDIX H

78a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 5 of 25

APPENDIX H

79a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 6 of 25

APPENDIX H

80a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 7 of 25

APPENDIX H

81a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 8 of 25

APPENDIX H

82a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 9 of 25

APPENDIX H

83a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 10 of 25

APPENDIX H

84a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 11 of 25

APPENDIX H

85a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 12 of 25

APPENDIX H

86a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 13 of 25

APPENDIX H

87a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 14 of 25

APPENDIX H

88a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 15 of 25

APPENDIX H

89a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 16 of 25

APPENDIX H

90a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 17 of 25

APPENDIX H

91a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 18 of 25

APPENDIX H

92a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 19 of 25

APPENDIX H

93a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 20 of 25

APPENDIX H

94a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 21 of 25

APPENDIX H

95a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 22 of 25

APPENDIX H

96a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 23 of 25

APPENDIX H

97a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 24 of 25

APPENDIX H

98a

Case 4:19-cv-00554-JFH-JFJ Document 1 Filed in USDC ND/OK on 10/18/19 Page 25 of 25

APPENDIX H

99a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 1 of 9

APPENDIX I

100a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 2 of 9

APPENDIX I

101a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 3 of 9

APPENDIX I

102a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 4 of 9

APPENDIX I

103a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 5 of 9

APPENDIX I

104a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 6 of 9

APPENDIX I

105a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 7 of 9

APPENDIX I

106a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 8 of 9

APPENDIX I

107a

Case 4:19-cv-00554-JFH-JFJ Document 76 Filed in USDC ND/OK on 07/21/20 Page 9 of 9

APPENDIX I

108a

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

DISCREF,PROTO,R/R,STAYED

U.S. District Court
U.S. District Court for the Northern District of Oklahoma (Tulsa)
CIVIL DOCKET FOR CASE #: 4:19-cv-00554-JFH-JFJ
Zou v. Linde Engineering North America, Inc.
Assigned to: Judge John F Heil, III
Referred to: Magistrate Judge Jodi F Jayne
Case in other court: 10th Circuit, 20-05099 (#116)
10th Circuit Court, 21-05002
Cause: 42:1983 Civil Rights (Employment Discrimination)

Date Filed: 10/18/2019
Jury Demand: None
Nature of Suit: 442 Civil Rights: Jobs
Jurisdiction: Federal Question

Plaintiff
Bo Zou

represented by Bo Zou
4920 S YORKTOWN AVE APT 122
TULSA, OK 74105
713-835-8655
PRO SE

V.
Defendant
Linde Engineering North America, Inc.

represented by Jessica L. Craft
Littler Mendelson
1301 McKinney Street
Suite 1400
77010
Houston, TX 77010
713-652-4765
Fax: 713-951-9212
Email: jcraft@littler.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Jonathan Gary Rector
Littler Mendelson PC (Dallas)
2001 ROSS AVE STE 1500 LB 116
DALLAS, TX 75201
214-880-8100
Fax: 214-880-0181
Email: jrector@littler.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

10/18/2019

1 COMPLAINT against Linde Engineering North America, Inc. by Bo Zou (sc, Dpty Clk)
(Entered: 10/21/2019)

10/18/2019

2 MOTION for Chinese (Mandarin) Translator by Bo Zou (sc, Dpty Clk) (Entered:
APPENDIX J
109a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

1/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

10/21/2019)
10/18/2019

3 LETTER from Plaintiff by Bo Zou (sc, Dpty Clk) (Entered: 10/21/2019)

10/18/2019

4 FILING FEES Paid in Full by Bo Zou (sc, Dpty Clk) (Entered: 10/21/2019)

10/18/2019

5 SUMMONS Issued by Court Clerk as to Linde Engineering North America, Inc. (sc,
Dpty Clk) (Entered: 10/21/2019)

11/25/2019

6 ANSWER (Re: 1 Complaint ) by Linde Engineering North America, Inc. [Note: Attorney
Jonathan Gary Rector added to party Linde Engineering North America, Inc.(pty:dft).]
(Rector, Jonathan) (Entered: 11/25/2019)

11/25/2019

7 CORPORATE DISCLOSURE STATEMENT by Linde Engineering North America, Inc.
(Rector, Jonathan) (Entered: 11/25/2019)

11/25/2019

8 MOTION for Relief (for Relief of Local Counsel Requirement) by Linde Engineering
North America, Inc. (Rector, Jonathan) (Entered: 11/25/2019)

11/26/2019

9 MINUTE ORDER by Chief Judge John E Dowdell The plaintiff's request for a translator
because of his "accent" is denied at this time. There are no hearings set at this time, and
the plaintiff's Complaint is coherent and is filed in English. At this time, the Court finds
that the plaintiff has not established a need for a translator. As the litigation progresses,
if a translator becomes necessary for purposes of accommodating plaintiff's accent (e.g.
during deposition, court hearings) or for any other reason, the Court will consider a
renewed motion for appointment of a translator ; denying 2 Motion for Miscellaneous
Relief (This entry is the Official Order of the Court. No document is attached.) (JED1,
Chambers) (Entered: 11/26/2019)

11/26/2019

10 MINUTE ORDER by Chief Judge John E Dowdell Defendant's Motion for Relief from
Local Counsel Requirement (Doc. 8) is granted. Defendant's attorneys are admitted to
practice in the State of Oklahoma, have practiced in Oklahoma, and are admitted to
practice in this Court. Accordingly, defendant's counsel are excused from the requirement
to associate with local counsel under LCvR 83.3 ; granting 8 Motion for Relief (This
entry is the Official Order of the Court. No document is attached.) (JED1, Chambers)
(Entered: 11/26/2019)

11/27/2019

11 MINUTE ORDER by Court Clerk , directing Linde Engineering North America, Inc. to
file a Corporate Disclosure Statement pursuant to FRCvP 7.1 within seven (7) days of
this order, if they have not already done so. The parties shall use the form entitled
Corporate Disclosure Statement available on the Courts website (please do not refile if
already filed on non-court form unless directed to do so). If you have already filed your
Corporate Disclosure Statement in this case, you are reminded to file a Supplemental
Corporate Disclosure Statement within a reasonable time of any change in the
information that the statement requires. (This entry is the Official Order of the Court. No
document is attached.) (alg, Dpty Clk) (Entered: 11/27/2019)

12/03/2019

12 ATTORNEY APPEARANCE by Jessica Lynn Craft on behalf of All Defendants [Note:
Attorney Jessica Lynn Craft added to party Linde Engineering North America, Inc.
(pty:dft).] (Craft, Jessica) (Entered: 12/03/2019)

12/06/2019

13 AMENDED COMPLAINT against Linde Engineering North America, Inc. (Re: 1
Complaint ) by Bo Zou (jjs, Dpty Clk) (Entered: 12/06/2019)

12/09/2019

14 ORDER by Chief Judge John E Dowdell , directing parties to file joint status report (
Status Report due by 1/9/2020) (SAS, Chambers) (Entered: 12/09/2019)

12/20/2019

15 ANSWER (Re: 13 Amended Complaint ) by Linde Engineering North America, Inc.
(Craft, Jessica) (Entered: 12/20/2019)
APPENDIX J
110a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

2/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

01/08/2020

16 Joint STATUS REPORT by Linde Engineering North America, Inc. (Craft, Jessica)
(Entered: 01/08/2020)

01/14/2020

17 NOTICE of Change of Address by Bo Zou (jjs, Dpty Clk) (Entered: 01/14/2020)

01/14/2020

18 MOTION to request a Chinese (Mandarin) translator by Bo Zou (jjs, Dpty Clk) (Main
Document 18 replaced on 1/15/2020 to add correct document) (jjs, Dpty Clk). (Entered:
01/14/2020)

01/15/2020

NOTICE of Docket Entry Modification; Error: wrong pdf attached; Correction: replaced
pdf (Re: 18 MOTION to request a Chinese (Mandarin) translator ) (jjs, Dpty Clk)
(Entered: 01/15/2020)

03/04/2020

19 MOTION to Quash by Linde Engineering North America, Inc. (With attachments)
(Rector, Jonathan) Modified on 3/4/2020; this is a three-part motion of which only one
part was efiled - see 20 for Motion for Sanctions and Motion for Protective Order (sac,
Dpty Clk). (Entered: 03/04/2020)

03/04/2020

20 MOTION for Sanctions , MOTION for Protective Order (both parts submitted as part of
19 ) by Linde Engineering North America, Inc. (sac, Dpty Clk) (Entered: 03/04/2020)

03/04/2020

***Motion(s) Referred to Magistrate Judge Jayne (Re: 20 MOTION for Sanctions
MOTION for Protective Order (both parts submitted as part of 19 ) ) (sac, Dpty Clk)
(Entered: 03/04/2020)

03/04/2020

NOTICE of Docket Entry Modification; Error: this is a three-part motion of which only
one part was efiled; Correction: efiled Motion for Sanctions and Motion for Protective
Order - see 20 (Re: 19 MOTION to Quash ) (sac, Dpty Clk) (Entered: 03/04/2020)

03/06/2020

21 MINUTE ORDER by Magistrate Judge Jodi F Jayne Plaintiff is ordered to file a response
to Defendant's Motion to Quash Third-Party Subpoena and Motion for Sanctions or, in
the Alternative, Motion for Protective Order (ECF Nos. 19, 20) by March 18, 2020, and
Defendant may file a reply by March 25, 2020. The motions are set for a telephonic
hearing on April 2, 2020, at 10:00 a.m. Counsel for Defendant is directed to arrange the
conference call and contact the Courtroom Deputy at
stephanie_cope@oknd.uscourts.gov and Plaintiff of the conference number,
setting/resetting deadline(s)/hearing(s): ( Responses due by 3/18/2020, Replies due by
3/25/2020, Motion Hearing set for 4/2/2020 at 10:00 AM before Magistrate Judge Jodi F
Jayne) (Re: 20 MOTION for Sanctions MOTION for Protective Order (both parts
submitted as part of 19 ), 19 MOTION to Quash ) (This entry is the Official Order of the
Court. No document is attached.) (sdc, Dpty Clk) (Entered: 03/06/2020)

03/09/2020

22 MOTION to Compel Production of Documents by Bo Zou (With attachments) (sc, Dpty
Clk) Modified on 3/11/2020 this is a two-part motion, see Dkt. # 24 for the additional
motion part (sc, Dpty Clk). (Entered: 03/10/2020)

03/09/2020

24 MOTION for Sanctions Responsive to Plantiff's First Request for Documents (submitted
as dkt # 22 ) by Bo Zou (sc, Dpty Clk) (Entered: 03/11/2020)

03/09/2020

NOTICE of Docket Entry Modification; Error: this is a two-part motion of which only
one part was efiled; Correction: efiled MOTION for Sanctions as Dkt. # 24 (Re: 22
MOTION to Compel Production of Documents and for Sanctions Responsive to Plantiff's
First Request for Documents ) (sc, Dpty Clk) (Entered: 03/11/2020)

03/09/2020

***Motion(s) Referred to Magistrate Judge Jayne (Re: 24 MOTION for Sanctions
Responsive to Plantiff's First Request for Documents (submitted as dkt # 22 ) ) (sc, Dpty
Clk) (Entered: 03/11/2020)

03/10/2020

23 MINUTE ORDER by Magistrate Judge Jodi F Jayne The telephone hearing scheduled
APPENDIX J
111a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

3/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

for April 2, 2020, is stricken. All other deadlines remain the same, striking/terminating
deadline(s)/Hearing(s) (This entry is the Official Order of the Court. No document is
attached.) (sdc, Dpty Clk) (Entered: 03/10/2020)
03/17/2020

25 RESPONSE in Opposition to Motion (Re: 20 MOTION for Sanctions MOTION for
Protective Order (both parts submitted as part of 19 ), 19 MOTION to Quash ) by Bo
Zou ; (sc, Dpty Clk) (Entered: 03/17/2020)

03/25/2020

26 RESPONSE in Opposition to Motion (Re: 22 MOTION to Compel Production of
Documents and for Sanctions Responsive to Plantiff's First Request for Documents ) by
Linde Engineering North America, Inc. ; (With attachments) (Craft, Jessica) (Entered:
03/25/2020)

03/25/2020

27 REPLY to Response to Motion (Re: 20 MOTION for Sanctions MOTION for Protective
Order (both parts submitted as part of 19 ), 19 MOTION to Quash ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 03/25/2020)

04/02/2020

28 REPLY to Response to Motion (Re: 24 MOTION for Sanctions Responsive to Plantiff's
First Request for Documents (submitted as dkt # 22 ), 22 MOTION to Compel
Production of Documents and for Sanctions Responsive to Plantiff's First Request for
Documents ) by Bo Zou ; (With attachments) (sc, Dpty Clk) 4/2/2020 - image is as
legible as the original. (sc, Dpty Clk). (Entered: 04/02/2020)

04/16/2020

29 MOTION to Accelerate/Extend/Reset Hearing(s)/Deadline(s) Discovery Deadline on
Joint Status Report (Re: 21 Minute Order,,,,, Setting/Resetting Deadline(s)/Hearing(s),,,,
) by Bo Zou (sc, Dpty Clk) (Entered: 04/16/2020)

04/16/2020

30 MOTION to Compel Production of Documents, by Bo Zou (With attachments) (sc, Dpty
Clk) Modified on 4/17/2020 this is a two-part motion, see Dkt. # 31 for the additional
motion parts. (sc, Dpty Clk) (Entered: 04/16/2020)

04/16/2020

31 MOTION for Sanctions (submitted as dkt # 30 ) by Bo Zou (sc, Dpty Clk) (Entered:
04/17/2020)

04/17/2020

32 Opposed MOTION for Entry of Scheduling Order by Linde Engineering North America,
Inc. (Rector, Jonathan) (Entered: 04/17/2020)

04/17/2020

33 RESPONSE in Opposition to Motion (Re: 29 MOTION to Accelerate/Extend/Reset
Hearing(s)/Deadline(s) Discovery Deadline on Joint Status Report ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 04/17/2020)

04/24/2020

34 MOTION for Sanctions by Bo Zou (alg, Dpty Clk) (Entered: 04/24/2020)

05/07/2020

35 RESPONSE in Opposition to Motion (Re: 30 MOTION to Compel Production of
Documents ) by Linde Engineering North America, Inc. ; (With attachments) (Rector,
Jonathan) (Entered: 05/07/2020)

05/14/2020

36 RESPONSE in Opposition to Motion (Re: 34 MOTION for Sanctions ) by Linde
Engineering North America, Inc. ; (With attachments) (Rector, Jonathan) (Entered:
05/14/2020)

05/19/2020

37 ORDER by Magistrate Judge Jodi F Jayne ; granting in part and denying in part 30
Motion to Compel; granting in part and denying in part 31 Motion for Sanctions; denying
19 Motion to Quash; granting in part and denying in part 20 Motion for Sanctions;
granting in part and denying in part 20 Motion for Protective Order; granting in part and
denying in part 22 Motion to Compel; granting in part and denying in part 24 Motion for
Sanctions (sdc, Dpty Clk) (Entered: 05/19/2020)

05/26/2020

38 MOTION to Reconsider (Re: 21 Minute Order, Setting/Resetting Deadline(s)/Hearing(s),
APPENDIX J
112a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

4/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

37 Order, Ruling on Motion to Compel, Ruling on Motion for Sanctions, Ruling on
Motion to Quash, Ruling on Motion for Protective Order) by Bo Zou (With attachments)
(sc, Dpty Clk) (Entered: 05/26/2020)
05/28/2020

39 REPLY to Response to Motion (Re: 34 MOTION for Sanctions ) by Bo Zou ; (sc, Dpty
Clk) (Entered: 05/28/2020)

06/01/2020

40 MOTION to Reassign Judge by Bo Zou (alg, Dpty Clk) (Entered: 06/01/2020)

06/01/2020

41 MOTION for Hearing by Bo Zou (alg, Dpty Clk) (Entered: 06/01/2020)

06/01/2020

42 MOTION for Chinese (Mandarin) Translator by Bo Zou (alg, Dpty Clk) (Entered:
06/01/2020)

06/02/2020

43 MINUTE ORDER by Chief Judge John E Dowdell , referring motion(s) to Magistrate
Judge Jayne (Re: 38 MOTION to Reconsider , 34 MOTION for Sanctions ) (This entry is
the Official Order of the Court. No document is attached.) (SAS, Chambers) (Entered:
06/02/2020)

06/02/2020

44 Opposed MOTION for Protective Order by Linde Engineering North America, Inc. (With
attachments) (Rector, Jonathan) (Entered: 06/02/2020)

06/04/2020

45 MOTION for Hearing (Re: 38 MOTION to Reconsider) , MOTION for Chinese
(Mandarin) Translator by Bo Zou (alg, Dpty Clk) Modified on 6/4/2020 to create link to
38 (sac, Dpty Clk). (Entered: 06/04/2020)

06/04/2020

46 MINUTE ORDER by Chief Judge John E Dowdell , referring motion(s) to Magistrate
Judge Jayne (Re: 45 MOTION for Hearing MOTION for Chinese (Mandarin) Translator
) (This entry is the Official Order of the Court. No document is attached.) (lml, Dpty Clk)
(Entered: 06/04/2020)

06/10/2020

47 MINUTE ORDER by Court Clerk pursuant to General Order 20-14, reassigning case to
Judge John F Heil, III, Chief Judge John E Dowdell no longer assigned to case, changing
case number to 19-CV-554-JFH-JFJ (This entry is the Official Order of the Court. No
document is attached.) (lml, Dpty Clk) (Entered: 06/10/2020)

06/12/2020

48 RESPONSE in Opposition to Motion (Re: 44 Opposed MOTION for Protective Order )
by Bo Zou ; (alg, Dpty Clk) (Entered: 06/12/2020)

06/15/2020

49 RESPONSE in Opposition to Motion (Re: 38 MOTION to Reconsider ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 06/15/2020)

06/17/2020

50 Opposed MOTION to Accelerate/Extend/Reset Hearing(s)/Deadline(s) MOTION FOR
EXTENSION OF TIME TO COMPLY WITH THE COURTS ORDER by Linde
Engineering North America, Inc. (Craft, Jessica) (Entered: 06/17/2020)

06/18/2020

51 MOTION to Quash by Linde Engineering North America, Inc. (Rector, Jonathan)
Modified on 6/18/2020; this is a two-part motion of which only one part was efiled - see
54 for Motion for Protective Order (sac, Dpty Clk). (Entered: 06/18/2020)

06/18/2020

52 ERRATA/CORRECTION (Re: 51 MOTION to Quash and For Protective Order ) by
Linde Engineering North America, Inc. (With attachments) (Rector, Jonathan) (Entered:
06/18/2020)

06/18/2020

53 Opposed MOTION to Stay Depositions Pending Resolution of Defendant's Motion to
Quash and For Protective Order by Linde Engineering North America, Inc. (Rector,
Jonathan) (Entered: 06/18/2020)

06/18/2020

54 MOTION for Protective Order (submitted as part of 51 ) by Linde Engineering North
America, Inc. (sac, Dpty Clk) (Entered: 06/18/2020)
APPENDIX J
113a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

5/13

5/3/2021

06/18/2020

CM/ECF LIVE - U.S. District Court:oknd

NOTICE of Docket Entry Modification; Error: this is a two-part motion of which only
one part was efiled; Correction: efiled Motion for Protective Order - see 54 (Re: 51
MOTION to Quash ) (sac, Dpty Clk) (Entered: 06/18/2020)

06/18/2020

55 MINUTE ORDER by Judge John F Heil, III , referring motion(s) to Magistrate Jayne
(Re: 53 Opposed MOTION to Stay Depositions Pending Resolution of Defendant's
Motion to Quash and For Protective Order, 50 Opposed MOTION to
Accelerate/Extend/Reset Hearing(s)/Deadline(s) MOTION FOR EXTENSION OF TIME
TO COMPLY WITH THE COURTS ORDER ) (This entry is the Official Order of the
Court. No document is attached.) (pll, Dpty Clk) (Entered: 06/18/2020)

06/18/2020

56 RESPONSE in Opposition to Motion (Re: 41 MOTION for Hearing ) by Linde
Engineering North America, Inc. ; (With attachments) (Craft, Jessica) (Entered:
06/18/2020)

06/18/2020

57 RESPONSE in Opposition to Motion (Re: 40 MOTION to Reassign Judge ) by Linde
Engineering North America, Inc. ; (Craft, Jessica) (Entered: 06/18/2020)

06/22/2020

58 MINUTE ORDER by Magistrate Judge Jodi F Jayne Defendant's Opposed Motion to
Stay Depositions Pending Resolution of Defendant's Motion to Quash and for Protective
Order (ECF No. 53), which seeks to quash ten unilaterally noticed depositions to
commence tomorrow, June 23, 2020, is GRANTED. All depositions noticed by Plaintiff
are hereby STAYED pending ruling on Defendant's Motion to Quash and for Protective
Order (ECF No. 51, 54). There is no scheduling order in place, and Plaintiff will not
suffer prejudice from delay of the depositions pending the Court's rulings ; granting 53
Motion to Stay (This entry is the Official Order of the Court. No document is attached.)
(sdc, Dpty Clk) (Entered: 06/22/2020)

06/23/2020

59 MOTION to Strike Document(s) , MOTION for Sanctions (Re: 49 Response in
Opposition to Motion ) by Bo Zou (alg, Dpty Clk) (Entered: 06/23/2020)

06/23/2020

60 MOTION to Compel , MOTION for Sanctions by Bo Zou (alg, Dpty Clk) (Entered:
06/23/2020)

06/25/2020

61 MINUTE ORDER by Judge John F Heil, III , referring motion(s) to Magistrate Jayne
(Re: 59 MOTION to Strike Document(s) MOTION for Sanctions ) (This entry is the
Official Order of the Court. No document is attached.) (pll, Dpty Clk) (Entered:
06/25/2020)

06/25/2020

62 RESPONSE in Opposition to Motion (Re: 45 MOTION for Hearing MOTION for
Chinese (Mandarin) Translator ) by Linde Engineering North America, Inc. ; (Craft,
Jessica) (Entered: 06/25/2020)

06/29/2020

63 RESPONSE in Opposition to Motion (Re: 50 MOTION to Accelerate/Extend/Reset
Hearing(s)/Deadline(s) by Bo Zou ; (sc, Dpty Clk) Modified on 7/1/2020 to correct event
(sc, Dpty Clk). (Entered: 06/30/2020)

06/29/2020

64 REPLY to Response to Motion (Re: 41 MOTION for Hearing, 45 MOTION for Hearing
MOTION for Chinese (Mandarin) Translator ) by Bo Zou ; (sc, Dpty Clk) Modified on
7/7/2020 to create link to 41 (sac, Dpty Clk). (Entered: 06/30/2020)

06/29/2020

65 REPLY to Response to Motion (Re: 38 MOTION to Reconsider ) by Bo Zou ; (sc, Dpty
Clk) (Entered: 06/30/2020)

07/01/2020

NOTICE of Docket Entry Modification; Error: wrong event selected (REPLY to
Response to Motion); Correction: corrected event and linked to correct dkt number
(RESPONSE in Opposition to Motion) (Re: 63 Reply to Response to Motion ) (sc, Dpty
Clk) (Entered: 07/01/2020)

APPENDIX J

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

114a

6/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

07/02/2020

66 REPLY to Response to Motion (Re: 40 MOTION to Reassign Judge ) by Bo Zou ; (dlg,
Dpty Clk) Modified on 7/6/2020 to change text to reflect correct event. (dlg, Dpty Clk).
(Entered: 07/02/2020)

07/02/2020

67 OBJECTION (Re: 58 Minute Order,,,, Ruling on Motion to Stay,,, ) by Bo Zou (dlg, Dpty
Clk) (Entered: 07/02/2020)

07/06/2020

NOTICE of Docket Entry Modification; Error: Wrong event selected (Brief in support of
motion); Correction: Edited docket text to reflect correct event (Reply to response to
motion) (Re: 66 Brief in Support of Motion ) (dlg, Dpty Clk) (Entered: 07/06/2020)

07/08/2020

68 RESPONSE in Opposition to Motion (Re: 54 MOTION for Protective Order (submitted
as part of 51 ), 51 MOTION to Quash ) by Bo Zou ; (With attachments) (sc, Dpty Clk)
(Entered: 07/08/2020)

07/09/2020

69 ORDER by Judge John F Heil, III , directing parties to file joint status report ( Status
Report due by 7/24/2020) (CDK, Chambers) (Entered: 07/09/2020)

07/09/2020

70 ORDER by Magistrate Judge Jodi F Jayne ; denying 34 Motion for Sanctions; denying 38
Motion to Reconsider; granting 44 Motion for Protective Order; denying 45 Motion for
Hearing; denying 45 Motion for Miscellaneous Relief; granting 50 Motion to
Accelerate/Extend/Reset Hearing(s)/Deadline(s); denying 59 Motion to Strike
Document(s); denying 59 Motion for Sanctions (sdc, Dpty Clk). (Entered: 07/09/2020)

07/09/2020

71 PROTECTIVE ORDER by Magistrate Judge Jodi F Jayne (sdc, Dpty Clk) (Entered:
07/09/2020)

07/10/2020

72 OBJECTION (Re: 69 Order, Directing Parties to File Joint Status Report ) by Bo Zou (sc,
Dpty Clk) (Entered: 07/10/2020)

07/10/2020

73 MOTION to Change Venue by Bo Zou (sc, Dpty Clk) (Entered: 07/10/2020)

07/15/2020

74 RESPONSE in Opposition to Motion (Re: 60 MOTION to Compel MOTION for
Sanctions ) by Linde Engineering North America, Inc. ; (With attachments) (Craft,
Jessica) (Entered: 07/15/2020)

07/21/2020

75 REPLY to Response to Motion (Re: 60 MOTION to Compel MOTION for Sanctions ) by
Bo Zou ; (With attachments) (sc, Dpty Clk) (Entered: 07/21/2020)

07/21/2020

76 OBJECTION to Magistrate Judge's Order (Re: 70 Order, Ruling on Motion for Sanctions,
Ruling on Motion to Reconsider, Ruling on Motion for Protective Order, Ruling on
Motion for Hearing, Ruling on Motion for Miscellaneous Relief, Ruling on Motion to
Accelerate/Extend/Reset Hearing(s)/Deadline(s),, Ruling on Motion to Strike
Document(s)) by Bo Zou (With attachments) (sc, Dpty Clk) Modified on 7/22/2020 to
change event (sac, Dpty Clk). (Entered: 07/21/2020)

07/21/2020

77 MOTION to Request the District Judge to Rule Pursuant to Federal Rules of Civil
Procedure (submitted as dkt # 76 ) (Re: 76 Objection, ) by Bo Zou (sc, Dpty Clk)
Modified on 7/22/2020 - ENTERED IN ERROR(sac, Dpty Clk). (Entered: 07/21/2020)

07/22/2020

NOTICE of Docket Entry Modification; Error: wrong event selected (Objection); entry
made which wasn't necessary (Motion for Miscellaneous Relief); Correction: changed
event (Objection to Magistrate Judge's Order); terminated motion filed in error (Re: 77
MOTION to Request the District Judge to Rule Pursuant to Federal Rules of Civil
Procedure (submitted as dkt # 76 ), 76 OBJECTION to Magistrate Judge ) (sac, Dpty
Clk) (Entered: 07/22/2020)

07/22/2020

78 REPLY to Response to Motion (Re: 51 MOTION to Quash, 54 MOTION for Protective
Order ) by Linde Engineering North America, Inc. ; (With attachments) (Rector,
APPENDIX J
115a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

7/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

Jonathan) Modified on 7/23/2020 to add link to 54 (sac, Dpty Clk). (Entered: 07/22/2020)
07/23/2020

79 RESPONSE (Re: 67 Objection ) by Linde Engineering North America, Inc. (Rector,
Jonathan) (Entered: 07/23/2020)

07/24/2020

80 STATUS REPORT by Linde Engineering North America, Inc. (With attachments)
(Rector, Jonathan) (Entered: 07/24/2020)

07/27/2020

81 MINUTE ORDER by Judge John F Heil, III , referring motion(s) to Magistrate Jayne
(Re: 18 MOTION to request a Chinese (Mandarin) translator , 42 MOTION for Chinese
(Mandarin) Translator ) (This entry is the Official Order of the Court. No document is
attached.) (pll, Dpty Clk) (Entered: 07/27/2020)

07/27/2020

82 MINUTE ORDER by Judge John F Heil, III : Finding plaintiff's motion to extend
discovery deadline on joint status report moot ; finding as moot 29 Motion to
Accelerate/Extend/Reset Hearing(s)/Deadline(s) (This entry is the Official Order of the
Court. No document is attached.) (pll, Dpty Clk) (Entered: 07/27/2020)

07/27/2020

83 MINUTE ORDER by Judge John F Heil, III : Plaintiff's Motion for Change of
Magistrate Judge will be construed as a Motion to Recuse, referring motion(s) to
Magistrate Jayne (Re: 40 MOTION to Reassign Judge ) (This entry is the Official Order
of the Court. No document is attached.) (pll, Dpty Clk) (Entered: 07/27/2020)

07/31/2020

84 RESPONSE in Opposition to Motion (Re: 73 MOTION to Change Venue ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 07/31/2020)

07/31/2020

85 MOTION to Reconsider (Re: 83 Minute Order,, Referring Motion(s), ) by Bo Zou (alg,
Dpty Clk) (Entered: 07/31/2020)

07/31/2020

86 MOTION to Compel , MOTION for Sanctions by Bo Zou (With attachments) (alg, Dpty
Clk) (Entered: 07/31/2020)

08/04/2020

87 RESPONSE in Opposition to Motion (Plaintiff's Objection) to the Magistrate Judge's
Order (Re: 76 OBJECTION to Magistrate Judge ) by Linde Engineering North America,
Inc. ; (Rector, Jonathan) (Entered: 08/04/2020)

08/06/2020

88 REPLY to Response to Motion (Re: 67 OBJECTION to Magistrate Judge ) by Bo Zou ;
(sc, Dpty Clk) Modified on 8/19/2020 to link dkt #67 (sc, Dpty Clk). (Entered:
08/06/2020)

08/06/2020

89 MOTION for Contempt by Bo Zou (With attachments) (sc, Dpty Clk) (Entered:
08/06/2020)

08/07/2020

90 SCHEDULING ORDER by Judge John F Heil, III (initial), setting/resetting scheduling
order date(s): ( Dispositive Motions due by 12/29/2020, Discovery due by 1/12/2021,
Proposed Pretrial Order due by 3/22/2021, Pretrial Conference set for 3/30/2021 at 09:30
AM before Judge John F Heil III, Jury Trial set for 4/19/2021 at 09:30 AM before Judge
John F Heil III) (pll, Dpty Clk) (Entered: 08/07/2020)

08/10/2020

91 MINUTE ORDER by Judge John F Heil, III : Following the entry of the scheduling
order 90 , defendant's motion for entry of scheduling order is moot ; finding as moot 32
Motion for Miscellaneous Relief (This entry is the Official Order of the Court. No
document is attached.) (pll, Dpty Clk) (Entered: 08/10/2020)

08/10/2020

92 MINUTE ORDER by Judge John F Heil, III , referring Defendant's request for special
discovery management order contained in the status report to Magistrate Jayne (Re: 80
Status Report ) (This entry is the Official Order of the Court. No document is attached.)
(pll, Dpty Clk) (Entered: 08/10/2020)

08/10/2020

93 MINUTE ORDER by Magistrate Judge Jodi F Jayne In the Status Report, Defendant
APPENDIX J
116a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

8/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

requests a Special Discovery Management Order that: (1) limits both parties to four (4)
total fact witness depositions, and (2) limits the parties to seventy-five (75) total requests
for production or, alternatively, requiring Plaintiff to seek leave of Court before serving
further discovery requests. Plaintiff may respond to this request for a Special Discovery
Management Order no later than ten days from the date of this order, or by August 20,
2020. No reply shall be permitted, setting/resetting deadline(s)/hearing(s): (
Miscellaneous Deadline set for 8/20/2020) (This entry is the Official Order of the Court.
No document is attached.) (sdc, Dpty Clk) (Entered: 08/10/2020)
08/11/2020

94 MOTION for Protective Order by Linde Engineering North America, Inc. (With
attachments) (Rector, Jonathan) (Entered: 08/11/2020)

08/12/2020

95 MINUTE ORDER by Magistrate Judge Jodi F Jayne For good cause shown and to avoid
unnecessary litigation expense, Defendant is excused from filing a response brief to ECF
Nos. 85, 86, and 89. Plaintiff shall respond to Defendant's Motion for Protective Order
(ECF No. 94) by August 20, 2020. Plaintiff shall not file any further motions until the
Court has ruled on Defendants Motion for Protective Order, setting/resetting
deadline(s)/hearing(s): ( Responses due by 8/20/2020) (Re: 94 MOTION for Protective
Order ) (This entry is the Official Order of the Court. No document is attached.) (sdc,
Dpty Clk) (Entered: 08/12/2020)

08/12/2020

96 OBJECTION to the Court Scheduling Order for Jury Trial (Re: 90 Scheduling Order,,
Setting/Resetting Scheduling Order Date(s), ) by Bo Zou (alg, Dpty Clk) (Entered:
08/13/2020)

08/12/2020

97 MOTION for Hearing , MOTION Chinese (Mandarin) Translator by Bo Zou (alg, Dpty
Clk) (Entered: 08/13/2020)

08/12/2020

98 REPLY (Re: 76 OBJECTION to Magistrate Judge ) by Bo Zou (alg, Dpty Clk) (Entered:
08/13/2020)

08/12/2020

99 REPLY (Re: 73 MOTION to Change Venue ) by Bo Zou (alg, Dpty Clk) (Entered:
08/13/2020)

08/14/2020

100 OBJECTION (Re: 95 Minute Order,,, Setting/Resetting Deadline(s)/Hearing(s),, ) by Bo
Zou (alg, Dpty Clk) (Entered: 08/14/2020)

08/17/2020

101 OBJECTION (Re: 93 Minute Order,,,, Setting/Resetting Deadline(s)/Hearing(s),,, ) by Bo
Zou (sc, Dpty Clk) (Entered: 08/17/2020)

08/20/2020

102 OBJECTION (Re: 90 Scheduling Order,, Setting/Resetting Scheduling Order Date(s), )
by Bo Zou (sc, Dpty Clk) (Entered: 08/21/2020)

08/20/2020

103 OBJECTION (Re: 80 Status Report, 93 Minute Order,,,, Setting/Resetting
Deadline(s)/Hearing(s),,, ) by Bo Zou (sc, Dpty Clk) (Entered: 08/21/2020)

08/20/2020

104 OBJECTION (Re: 94 MOTION for Protective Order ) by Bo Zou (sc, Dpty Clk)
(Entered: 08/21/2020)

08/25/2020

105 OBJECTION (Re: 95 Minute Order,,, Setting/Resetting Deadline(s)/Hearing(s),, ) by Bo
Zou (alg, Dpty Clk) (Entered: 08/25/2020)

09/03/2020

106 RESPONSE (Re: 103 Objection, 102 Objection, 105 Objection, 100 Objection, 101
Objection ) by Linde Engineering North America, Inc. (Rector, Jonathan) (Entered:
09/03/2020)

09/04/2020

107 REPLY (Re: 95 Minute Order,,, Setting/Resetting Deadline(s)/Hearing(s),, 100 Objection
) by Bo Zou (sc, Dpty Clk) (Entered: 09/08/2020)

09/21/2020

108 OPINION AND ORDER by Magistrate Judge Jodi F Jayne ; denying 40 Motion to
APPENDIX J
117a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

9/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

Reassign Judge; denying 42 Motion for Miscellaneous Relief; denying 51 Motion to
Quash; denying 54 Motion for Protective Order; denying 60 Motion to Compel; denying
60 Motion for Sanctions; denying 86 Motion to Compel; denying 86 Motion for
Sanctions; denying 89 Motion for Contempt; granting in part 94 Motion for Protective
Order; denying 18 Motion for Miscellaneous Relief (sdc, Dpty Clk) Modified on
9/21/2020 to replace document due to typographical errors (sdc, Dpty Clk). (Entered:
09/21/2020)
09/21/2020

109 NOTICE of Docket Entry Modification; Error: document filed with typographical errors;
Correction: replace PDF with corrected document (Re: 108 Opinion and Order,,, Ruling
on Motion to Reassign Judge,,, Ruling on Motion for Miscellaneous Relief,,, Ruling on
Motion to Quash,,, Ruling on Motion for Protective Order,,, Ruling on Motion to
Compel,,, Ruling on Motion for Sanctions,,,,,,,,, Ruling on Motion for Contempt,,,,,,,, )
(sdc, Dpty Clk) (Entered: 09/21/2020)

09/25/2020

110 MOTION to Stay by Bo Zou (sc, Dpty Clk) (Entered: 09/25/2020)

09/25/2020

111 OBJECTION to Magistrate Judge's Order (Re: 108 Opinion and Order, Ruling on Motion
to Reassign Judge, Ruling on Motion for Miscellaneous Relief, Ruling on Motion to
Quash, Ruling on Motion for Protective Order, Ruling on Motion to Compel, Ruling on
Motion for Sanctions, Ruling on Motion for Contempt) by Bo Zou (sc, Dpty Clk)
(Entered: 09/25/2020)

10/02/2020

112 MOTION for Sanctions by Linde Engineering North America, Inc. (Rector, Jonathan)
(Entered: 10/02/2020)

10/02/2020

113 NOTICE of Errata (Re: 111 OBJECTION to Magistrate Judge's Order, 110 MOTION to
Stay ) by Bo Zou (sc, Dpty Clk) (Entered: 10/02/2020)

10/02/2020

114 Second OBJECTION to Magistrate Judge's Order (Re: 108 Opinion and Order,,, Ruling
on Motion to Reassign Judge,,, Ruling on Motion for Miscellaneous Relief,,, Ruling on
Motion to Quash,,, Ruling on Motion for Protective Order,,, Ruling on Motion to
Compel,,, Ruling on Motion for Sanctions,,,,,,,,, Ruling on Motion for Contempt,,,,,,,, ) by
Bo Zou (sc, Dpty Clk) (Entered: 10/02/2020)

10/05/2020

115 MINUTE ORDER by Judge John F Heil, III , referring motion(s) to Magistrate Jayne
(Re: 112 MOTION for Sanctions ) (This entry is the Official Order of the Court. No
document is attached.) (pll, Dpty Clk) (Entered: 10/05/2020)

10/15/2020

116 NOTICE OF APPEAL to Circuit Court (Re: 108 Opinion and Order,,, Ruling on Motion
to Reassign Judge,,, Ruling on Motion for Miscellaneous Relief,,, Ruling on Motion to
Quash,,, Ruling on Motion for Protective Order,,, Ruling on Motion to Compel,,, Ruling
on Motion for Sanctions,,,,,,,,, Ruling on Motion for Contempt,,,,,,,, ) by Bo Zou (sc,
Dpty Clk) (Entered: 10/15/2020)

10/15/2020

117 MOTION for Leave to Appeal in Forma Pauperis (Re: 116 Notice of Appeal to Circuit
Court, ) by Bo Zou (sc, Dpty Clk) (Entered: 10/15/2020)

10/15/2020

118 PRELIMINARY RECORD Sent to Circuit Court (Re: 116 Notice of Appeal to Circuit
Court, ) (With attachments) (sc, Dpty Clk) (Additional attachment(s) added on
10/16/2020: # 3 Exhibit Opinion) (alg, Dpty Clk). (Additional attachment(s) added on
10/20/2020: # 4 document 114) (sc, Dpty Clk) (Entered: 10/15/2020)

10/16/2020
10/16/2020

***Remark: Copy of corrected preliminary record emailed to 10th Circuit and mailed to
plaintiff (Re: 118 Preliminary Record Sent ) (alg, Dpty Clk) (Entered: 10/16/2020)
119 NOTICE of Docket Entry Modification; Error: Opinion and Order missing from
Preliminary Record; Correction: Opinion and Order added to preliminary record (Re: 118
Preliminary Record Sent ) (alg, Dpty Clk) (Entered: 10/16/2020)
APPENDIX J
118a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

10/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

10/16/2020

120 RESPONSE in Opposition to Motion for Stay for Magistrate Judge's Preliminary
Injunction and Other Restriction in Discovery (Re: 110 MOTION to Stay ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 10/16/2020)

10/16/2020

121 APPEAL NUMBER INFORMATION from Circuit Court assigning Case Number 205099 (#116) (Re: 116 Notice of Appeal to Circuit Court, ) (alg, Dpty Clk) (Entered:
10/16/2020)

10/16/2020

122 RESPONSE in Opposition to Motion (COMBINED) (Re: 114 Second OBJECTION to
Magistrate Judge's Order, 111 OBJECTION to Magistrate Judge's Order ) by Linde
Engineering North America, Inc. ; (Rector, Jonathan) (Entered: 10/16/2020)

10/19/2020

123 RESPONSE in Opposition to Motion (Re: 112 MOTION for Sanctions ) by Bo Zou ; (sc,
Dpty Clk) (Entered: 10/19/2020)

10/19/2020

124 REPLY to Response to Motion (Re: 110 MOTION to Stay ) by Bo Zou ; (sc, Dpty Clk)
(Entered: 10/19/2020)

10/19/2020

125 REPLY (Re: 114 Second OBJECTION to Magistrate Judge's Order, 111 OBJECTION to
Magistrate Judge's Order ) by Bo Zou (sc, Dpty Clk) (Entered: 10/20/2020)

10/20/2020

***Remark: document # 114 forwarded to 10th Circuit to be included in preliminary
record (sc, Dpty Clk) (Entered: 10/20/2020)

10/26/2020

126 ORDER from Circuit Court considering the appeal for summary dismissal, Briefing on
the merits is suspended (Re: 116 Notice of Appeal to Circuit Court, ) (sc, Dpty Clk)
(Entered: 10/26/2020)

10/30/2020

127 MOTION to Expedite Ruling on Plaintiff's Motions, MOTION to Waive Expert Report
(sc, Dpty Clk) (Entered: 10/30/2020)

11/10/2020

128 Opposed MOTION to Stay All Deadlines Pending Appeal and Defendant's Motion to
Dismiss by Linde Engineering North America, Inc. (Craft, Jessica) (Entered: 11/10/2020)

11/12/2020

129 Amended MOTION to Stay All Deadlines Pending Plaintiffs Tenth Circuit Appeal and
Ruling on Defendants Motion for Sanctions (OPPOSED) by Linde Engineering North
America, Inc. (Rector, Jonathan) (Entered: 11/12/2020)

11/13/2020

130 ORDER by Judge John F Heil, III : pending 10th Circuit appeal ; staying case;
striking/terminating deadline(s)/Hearing(s); granting 128 Motion to Stay; granting 129
Motion to Stay (pll, Dpty Clk) (Entered: 11/13/2020)

11/16/2020

131 RESPONSE (Re: 129 Amended MOTION to Stay All Deadlines Pending Plaintiffs Tenth
Circuit Appeal and Ruling on Defendants Motion for Sanctions (OPPOSED) ) by Bo Zou
(sc, Dpty Clk) (Entered: 11/16/2020)

11/16/2020

132 OBJECTION (Re: 130 Order, Staying Case, Striking/Terminating
Deadline(s)/Hearing(s), Ruling on Motion to Stay, ) by Bo Zou (sc, Dpty Clk) (Entered:
11/16/2020)

11/20/2020

133 RESPONSE in Opposition to Motion (Re: 127 MOTION to Expedite Ruling on
Plaintiff's Motions MOTION to Waive Expert Report ) by Linde Engineering North
America, Inc. ; (Rector, Jonathan) (Entered: 11/20/2020)

11/23/2020

134 REPLY to Response to Motion (Re: 127 MOTION to Expedite Ruling on Plaintiff's
Motions MOTION to Waive Expert Report ) by Bo Zou ; (sc, Dpty Clk) Modified on
11/30/2020 to correct event (sc, Dpty Clk). (Entered: 11/24/2020)

11/30/2020

NOTICE of Docket Entry Modification; Error: wrong event selected (Response in
Support of Motion); Correction: corrected event (Reply to Response to Motion) (Re: 134
APPENDIX J
119a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

11/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

Response in Support of Motion ) (sc, Dpty Clk) (Entered: 11/30/2020)
12/02/2020

135 DECISION from Circuit Court dismissing the Appeal (Re: 116 Notice of Appeal to
Circuit Court, ) (sc, Dpty Clk) (Entered: 12/03/2020)

12/09/2020

136 REPORT AND RECOMMENDATION by Magistrate Judge Jodi F Jayne (Re: 112
MOTION for Sanctions ) (kah, Chambers) (Entered: 12/09/2020)

12/14/2020

137 ORDER by Judge John F Heil, III ; denying 76 Objection to Magistrate Judge's Order
(Re: 70 Order,, Ruling on Motion for Sanctions,, Ruling on Motion to Reconsider,,
Ruling on Motion for Protective Order,, Ruling on Motion for Hearing,, Ruling on
Motion for Miscellaneous Relief,, Ruling on Motion to Accelerate/Extend/Reset
Hearing(s)/Deadline(s),, Ruling on Motion to Strike Document(s),,, ) (pll, Dpty Clk)
(Entered: 12/14/2020)

12/14/2020

138 ORDER by Judge John F Heil, III ; denying 111 Objection to Magistrate Judge's Order;
denying 114 Objection to Magistrate Judge's Order (Re: 108 Opinion and Order,,, Ruling
on Motion to Reassign Judge,,, Ruling on Motion for Miscellaneous Relief,,, Ruling on
Motion to Quash,,, Ruling on Motion for Protective Order,,, Ruling on Motion to
Compel,,, Ruling on Motion for Sanctions,,,,,,,,, Ruling on Motion for Contempt,,,,,,,, )
(pll, Dpty Clk) (Entered: 12/14/2020)

12/14/2020

139 ORDER by Judge John F Heil, III ; denying 41 Motion for Hearing (pll, Dpty Clk)
(Entered: 12/14/2020)

12/14/2020

140 ORDER by Judge John F Heil, III ; denying 97 Motion for Hearing; denying 97 Motion
for Miscellaneous Relief (pll, Dpty Clk) (Entered: 12/14/2020)

12/14/2020

141 ORDER by Judge John F Heil, III ; denying 73 Motion to Change Venue (pll, Dpty Clk)
(Entered: 12/14/2020)

12/14/2020

142 ORDER by Judge John F Heil, III ; denying 85 Motion to Reconsider (Re: 83 Minute
Order,, Referring Motion(s), ) (pll, Dpty Clk) (Entered: 12/14/2020)

12/14/2020

143 ORDER by Judge John F Heil, III ; denying 110 Motion to Stay (Re: 110 MOTION to
Stay , 108 Opinion and Order,,, Ruling on Motion to Reassign Judge,,, Ruling on Motion
for Miscellaneous Relief,,, Ruling on Motion to Quash,,, Ruling on Motion for Protective
Order,,, Ruling on Motion to Compel,,, Ruling on Motion for Sanctions,,,,,,,,, Ruling on
Motion for Contempt,,,,,,,, ) (pll, Dpty Clk) (Entered: 12/14/2020)

12/14/2020

144 ORDER by Judge John F Heil, III ; denying 127 Motion to Expedite Ruling; denying 127
Motion to Waive (pll, Dpty Clk) (Entered: 12/14/2020)

12/23/2020

145 NOTICE of Change of Address by Bo Zou (ll, Dpty Clk) (Entered: 12/23/2020)

12/23/2020

146 OBJECTION to Report and Recommendation (Re: 136 REPORT AND
RECOMMENDATION by Magistrate Judge Jodi F Jayne ) by Bo Zou (ll, Dpty Clk)
(Entered: 12/23/2020)

12/23/2020

147 OBJECTION to Report and Recommendation (Re: 136 REPORT AND
RECOMMENDATION by Magistrate Judge Jodi F Jayne ) by Linde Engineering North
America, Inc. (Rector, Jonathan) (Entered: 12/23/2020)

01/11/2021

148 ***Remark: Plaintiff submitted two documents for JFH - forwarded to Chambers (srt,
Dpty Clk) (Entered: 01/11/2021)

01/13/2021

149 RESPONSE (Re: 146 Objection to Report and Recommendation ) by Linde Engineering
North America, Inc. (Rector, Jonathan) (Entered: 01/13/2021)

01/13/2021

***Remark: Petition for writ of Prohibition was filed in the 10th Circuit Court on
APPENDIX J
120a

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

12/13

5/3/2021

CM/ECF LIVE - U.S. District Court:oknd

01/13/2021 and assigned case number 21-5002 (ll, Dpty Clk) (Entered: 01/13/2021)
01/15/2021

150 LETTER from Circuit Court stating that the Petition for Writ of Certiorari has been filed
(U.S. Supreme Court Case Number: 20-6882) (Re: 116 Notice of Appeal to Circuit
Court, ) (ll, Dpty Clk) (Entered: 01/15/2021)

01/21/2021

151 REPLY (Re: 147 Objection to Report and Recommendation ) by Bo Zou (ll, Dpty Clk)
(Entered: 01/22/2021)

01/26/2021

152 ERRATA/CORRECTION (Re: 151 Reply ) by Bo Zou (ll, Dpty Clk) (Entered:
01/26/2021)

03/01/2021

153 ORDER from Circuit Court Final order filed by Judges Tymkovich, Phillips and Carson
denying petition for writ of prohibition and granting motion for leave to proceed in forma
pauperis (Re: Remark ) (ll, Dpty Clk) (Entered: 03/01/2021)

03/22/2021

154 LETTER from Circuit Court stating that the Petition for Writ of Certiorari has been
denied (Re: 116 Notice of Appeal to Circuit Court, ) (sc, Dpty Clk) (Entered: 03/23/2021)

03/24/2021

155 MINUTE ORDER by Judge John F Heil, III : Following the entry of the 10th Circuit
order ruling on their pending motion for leave to appeal IFP ; finding as moot 117
Motion for Leave to Appeal in Forma Pauperis (Re: 153 Order from Circuit Court ) (This
entry is the Official Order of the Court. No document is attached.) (pll, Dpty Clk)
(Entered: 03/24/2021)

PACER Service Center
Transaction Receipt
05/03/2021 08:45:24
PACER
Login:

rect8532

Client Code:

Description:

Docket
Report

Search
Criteria:

4:19-cv-00554-JFHJFJ

Cost:

1.20

Billable Pages: 12

APPENDIX J

https://ecf.oknd.uscourts.gov/cgi-bin/DktRpt.pl?140290909739198-L_1_0-1#onelogGrabbed

121a

13/13

